<html>
<title> - ORGANIZING THE ROLES, MISSIONS, AND REQUIREMENTS OF THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-62]
 
 ORGANIZING THE ROLES, MISSIONS, AND REQUIREMENTS OF THE DEPARTMENT OF 
                                DEFENSE

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 20, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                     U.S. GOVERNMENT PRINTING OFFICE
38-834 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
MARTY MEEHAN, Massachusetts          ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               HOWARD P. ``BUCK'' McKEON, 
VIC SNYDER, Arkansas                     California
ADAM SMITH, Washington               MAC THORNBERRY, Texas
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
MIKE McINTYRE, North Carolina        ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        KEN CALVERT, California
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
JAMES R. LANGEVIN, Rhode Island      JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK MURPHY, Pennsylvania         MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
GABRIELLE GIFFORDS, Arizona
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
               Jenness Simler, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, June 20, 2007, Organizing the Roles, Missions, and 
  Requirements of the Department of Defense......................     1

Appendix:

Wednesday, June 20, 2007.........................................    55
                              ----------                              

                        WEDNESDAY, JUNE 20, 2007
 ORGANIZING THE ROLES, MISSIONS, AND REQUIREMENTS OF THE DEPARTMENT OF 
                                DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Hamre, Dr. John J., President and CEO, Center for Strategic and 
  International Studies..........................................     4
Krepinevich, Dr. Andrew F., President, Center for Strategic and 
  Budgetary Assessments..........................................     8

                                APPENDIX

Prepared Statements:

    Hunter, Hon. Duncan..........................................    59
    Hamre, Dr. John J............................................    65
    Krepinevich, Dr. Andrew F....................................    70

Documents Submitted for the Record:

    Center for Strategic and International Studies (CSIS), List 
      of Government Funded Contracts/Grants 10/01/03 - Present...    89

Questions and Answers Submitted for the Record:

    Mr. Skelton..................................................    97
 ORGANIZING THE ROLES, MISSIONS, AND REQUIREMENTS OF THE DEPARTMENT OF 
                                DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 20, 2007.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, welcome to today's 
hearing, which is on organizing the roles and missions and the 
requirements of the Department of Defense.
    Before we start, I wish to introduce a very special group 
that is with us from Afghanistan. And I would like to call 
their names, and if I may ask them to stand.
    First Noorulhaq Olumi, the Chair of the Defense Committee; 
Zalmai Mujadidi, the Chair of the National and Domestic 
Security Committee; Jamil Karzia, a Pashtun member of the 
National and Domestic Security Committee; Mohammad Almas, a 
member of the National and Domestic Security Committee; and 
Helaluddin Helal, a member of the National and Domestic 
Security Committee.
    We are also pleased to welcome Ambassador Jawad, who is 
with us today. Ambassador, thank you. We certainly appreciate 
you being with us. Several of us, on a bipartisan basis, had 
the opportunity to visit with you, and it was very, very 
helpful, and we do appreciate your thoughts and your 
suggestions; most of all, your friendship.
    So thank you again for being with us.
    Today we have two very distinguished witnesses to discuss 
this all-important and yet in all respects, as has been in the 
past, at least up through 1958, a controversial issue: Dr. John 
Hamre, president of the Center for Strategic and International 
Studies, former Deputy Secretary of Defense; Dr. Andrew 
Krepinevich, president of the Center for Strategic and 
Budgetary Assessments and officer of the United States Army, 
retired.
    You two gentlemen were called to testify because you have 
given deep study through the years to some of the most 
important issues facing the Department of Defense.
    Today's topic is a very crucial one. It has been a topic of 
intense debate, and since the Key West agreement--my staff says 
1948, I say 1947, you will have to clarify that--but today's 
definition of the roles and missions is largely the same as the 
agreement reached then and as modified in 1953 and then again 
in 1958, but nothing, nothing has been done under those roles 
and missions since 1958.
    While the operational part of the military has been made 
fully joint thanks to the Congress of the United States, the 
training and equipment side remains fragmented and stovepiped, 
and our committee adopted significant and far-reaching 
legislative recommendations of roles and missions and 
requirements in our recent defense act, passed and sent to the 
Senate. These recommendations were developed on a bipartisan 
basis and reflect a deep commitment on the part of our 
committee to reform and modernize that Department.
    We require the Secretary of Defense to review the rules and 
missions of the Department every four years in the down time 
between the Quadrennial Defense Reviews. We recommend that the 
Secretary determine the core competencies agencies and military 
services and defense agencies currently offer in fulfilling 
these missions; ensure that they develop the core competencies 
that are currently lacking; and generate some capabilities that 
are not related to core competencies.
    Now, this is going to be a tough job for them that has to 
be done, and that is why your testimony today is so important.
    The committee's recommendations would also reform the 
requirement process to organize it according to the core 
mission areas identified by the Secretary; require that the 
requirement process be informed by realistic estimates of the 
resources available. The bill requires the Department to 
present its budget by mission area in addition to the 
traditional presentation by appropriation. It requires combat 
commanders to engage directly, I think for the first time, in 
planning for future capabilities.
    I have reviewed your written statements, gentlemen. I am 
struck by the fact that both of you indicate there are serious 
and significant deficiencies in the way the Department of 
Defense determines its missions, how it organizes itself, how 
it equips itself. Both of you suggest the Department is not 
adequately preparing themselves for the nontraditional missions 
that are likely to be increasingly relevant in today's security 
environment.
    Both of you also suggest in your statements that the 
requirements process is dominated by service interests 
sometimes to the detriment of the warfighter. In these 
judgments, I believe we are all in consensus. I know, however, 
that you propose some additions and alternative recommendations 
for our bill.
    And I think we know that our bill in that regard is not 
perfect, but we did address it, and the fact that we did 
address it for the first time since 1958 is significant. And 
you are here to help us--we still, of course, have conference 
with the Senate, and I am not sure if the Senate will even 
touch the issue. I just have no knowledge of that whatsoever, 
which means that the burden will be on this committee to carry 
forward this issue, and that is why your testimony, gentlemen, 
is so important.
    The Ranking Member, my good friend, Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thank you for 
holding this hearing this morning. I think that this reflects 
on your understanding of military history and your being the 
guardian of our military education facilities, and I think your 
understanding that we are involved in nontraditional wars right 
now. And sometimes it is tough to overlay the structure of the 
services over these new challenges that we have and to 
determine where jointness applies, and where new roles and 
missions need to be taken up or need to be sorted out, and 
where just enormous flexibility needs to be embedded in the 
services. So thanks for having this hearing.
    And I also welcome our guests and welcome our gentlemen who 
are on this panel who have contributed so much to national 
defense. So to Dr. Hamre, you have done a loyal yeoman's work 
for this country and for this committee for many years, and we 
sure appreciate you.
    And, Dr. Krepinevich, thank you for your contributions to 
our country. You gentlemen have great judgment, and you have 
shared it with us over many, many years on important issues. 
This is one of those issues.
    Although the Department of Defense, as it is currently 
organized, has been in existence since 1947, we have continued 
to struggle with the appropriate roles and missions of the 
Department and what capabilities each of our military services 
should have in order to fulfill those roles and missions. And 
since the end of the Cold War, it has become apparent that the 
Department must respond to both the changes in the geopolitical 
climate and to the adaptation of modern technology which poses 
what you might call irregular and disruptive threats.
    And these changes require no less than a complete review of 
the missions of the Department of Defense and reevaluation of 
the capabilities needed to deliver desired effects.
    I might say on that point the fact we are in a shooting war 
in two major theaters and smaller contingencies around the 
world right now I think has given us an urgency in terms of 
sorting out roles and missions, one that doesn't usually attend 
peacetime eras, but in light of the fact that we are executing, 
if you will, new roles and missions every day as a matter of 
necessity in the warfighting theaters, I think it is 
instructive to us in many areas and hopefully to you as well.
    I want to get--I don't want to put my entire statement--
read my entire statement, Mr. Chairman. I ask unanimous consent 
that it be put into the record and just say this before we get 
started.
    It looks to me like there is going to be three key factors 
that we are going to have to look at carefully that attend this 
issue. One is jointness; of course, the ability to do things 
together, work together. I think we have never had probably 
more jointness than we have right now; but also flexibility, 
and that means the ability of a military leader to step beyond 
the perimeters that have been established by doctrine and by 
schooling and by the--and by regulations and undertake two new 
missions, and be able to do a couple of things to step out of 
his box, his or her box, and move into new areas, and also to 
work with his troubled service in such a way that the new 
mission is undertaken in a cooperative way with maximum effect. 
And, last, I think that creativity is going to be an important 
element now and a necessary element in the leadership of our 
officers.
    It is--because we are going to have--we are going to have 
missions which aren't susceptible to easy categorization, which 
are going to require lots of new thinking, and to some degree 
there may be some push-back from the services as it appears 
that one service is trespassing on something that they think is 
in their traditional jurisdiction, if you will. And so this is 
going to be a time when people that are willing to take risks 
in the officers corps are going to need to step to the fore. 
And everything can't be laid out in terms of prescribed 
regulations. Basically the blueprint can't be perfectly 
designed by us, nor can it be perfectly designed by Pentagon 
leadership. This is going to be a time when people take risks 
and are held accountable to some degree for risk taking. I 
think it is going to be a time for boldness in our military 
leadership.
    Having said those few words, I look forward to listening to 
these two gentlemen who I think represent the finest, very 
finest, representation of a great pool of individuals who have 
lots of experience, who have shared their wisdom with us over 
many years to take on this challenge.
    Thank you, Mr. Chairman. I look forward to the testimony.
    The Chairman. Thank you, Mr. Hunter.
    [The prepared statement of Mr. Hunter can be found in the 
Appendix on page 59.]
    The Chairman. My good staff tells me that the Key West 
agreement regarding roles and missions which was urged by 
President Harry Truman actually was dated 1948, and I was wrong 
on that by one year, but I was right in the initial urging by 
the then President. So this is really important. This is very 
important. That is why we are here.
    Mr. Hamre.
    Dr. Hamre. I was a staffer for ten years, and I never made 
the mistake of correcting my Chairman in a public meeting. So 
I--forgive me, Andrew.
    Thank you for inviting me to.
    Mr. Spratt. Dr. Hamre, welcome to the people's House.

 STATEMENT OF DR. JOHN J. HAMRE, PRESIDENT AND CEO, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Hamre. And let me just begin by saying how grateful I 
am that all of you are serving in this role and holding this 
hearing. I think it is crucial.
    You know, I have worked for the Congress for 17 years 
before I went to the executive branch, and I honestly believe 
that our Congress is the crown jewel of American democracy. 
When you think of the Nation, you think of the President; but 
when you say ``we, the people,'' you think about the Congress. 
And I think it is that crucial balance in America that has been 
so important, and it has made this such a glorious democracy. 
So I thank you all for serving with us in this and being the 
representatives of the people on these very big issues.
    Sir, I prepared a written statement, but I think I made a 
mistake. I think I drafted that statement too narrowly 
concerning the provisions that were in your bill. I am happy to 
talk about them, but you framed this hearing in a much larger 
way today, and so if you would permit me to put the statement 
in the record, and could I make a few general observations and 
maybe use that as a jumping-off point for what I hope would be 
a useful conversation.
    I was on the staff of the Senate Armed Services Committee 
when we worked on the Senate side of Goldwater-Nichols, and I 
remember Bill Nichols, a great man, having led this committee 
in leading for what it brought to the table for this really 
remarkable legislation. And it did transform the Defense 
Department in very positive ways.
    There were three crucial things that were in Goldwater-
Nichols. The first was it raised the importance and prominence 
of the Chairman and the Vice Chairman and the Joint staff.
    The second thing is it raised in prominence the Unified 
Combatant Commanders--we used to call them Commanders in Chief 
(CINCs)--but the Combatant Commanders, and it gave them a much 
stronger voice inside DOD deliberations.
    And the third thing it did was it required--it stipulated 
that no one could become an admiral or general until you had 
joint duty, you had served in a joint command. That was really 
the foundation of Goldwater-Nichols, and it really transformed 
the Department.
    Now, I think it is extremely important to understand what 
this did. What that--what Goldwater-Nichols did was to clean up 
and give much more of a balance to what I call the supply and 
demand equation in the Department. You need advocates of 
supply, and you need advocates of demand. And we had very weak 
voices for demand because back then the people who were the 
supply guys, the chiefs of the military departments, were also 
kind of in charge of demand, and we were not getting a good 
balance between the two.
    So we raised up and lifted up the voices that demand combat 
services and capabilities, and we balance it against the very 
strong, powerful forces of supply in the Department, and it is 
a good compromise. It is a very good formula.
    And I think this clarity of supply and demand, I would ask 
you to keep it in mind as you are thinking about it. We have 
some problems, the way it is structured, and I will come back 
to it in just a moment.
    Now, I would say that the central problem in the Department 
today, and I am not making--I will only comment on experiences 
that I had when I was the Deputy Secretary. I am not commenting 
on how it has operated in the last six years. I have not been 
there. I would ask you to think about the concept of friction. 
You know, there is good friction, and there is bad friction. 
Good friction is congressional oversight. I mean, you don't 
want to move too fast. You want oversight, and that is good 
friction, and you want good friction so that when decisions are 
coming up to the Secretary, you really do have a point of view 
that has been vetted, you know, in a cross-sectional way so 
that you really do have a good feel for the implications. You 
want good friction.
    We have a lot of bad friction in the Defense Department. We 
have got a lot of competition which is really more about turf 
than we do about responsibility. And I think what I would ask 
you to think about when you are designing this legislation is 
that you think about properly structuring the good friction 
that you want, the oversight that you want and that you need, 
and minimizing the bad friction, and we have got a lot of it.
    Now, if it is in that regard, may I just say I spent a fair 
amount of time when I was in the Senate working on the Armed 
Services Committee on rules and missions, and I had never 
worked in the Department before I had done it. I had spent then 
seven and a half years working in the Department, and I will 
honestly tell you that a rules and missions initiative really 
sets off a lot of friction in the Department, and I think it 
works against a very important goal that I know you all have, 
which is to improve jointness.
    We want our services to fight in an integrated way better, 
but when you force people to fight over rules and missions, it 
forces them into a parochial posture. They fall back on things 
that they feel they have to do for the good of their service 
rather than things they need to do for the good functioning of 
the whole Department in a joint way.
    So I would ask you to think very carefully about how you 
want to press this issue of demanding a rules and missions 
review, because I do think it probably cuts against the grain 
when you want to promote better jointness.
    Second issue I would ask you to think about, our form of 
government holds--when I was the Deputy Secretary of Defense, I 
was responsible to the American people through the President 
and through the Secretary. And everybody in the Department is 
responsible to the American people through two chains: through 
the President when you are appointed, and to you, the Congress, 
representing the people. Everybody. And that goes down to the 
buck private.
    That chain of command has one central person who is the 
most important person who is accountable to you, and the 
person--and that is the Secretary of Defense, and I would ask 
you to be careful not to undermine the Secretary of Defense 
when you design some of the directions that we are talking 
about here.
    Now, I know we have had a period where we have had some 
rough edges between the Department and the Secretary in the 
last several years. I think we have a superb Secretary of 
Defense. Bob Gates is a superb man. You do not want to--you 
want to have as much clarity in what comes to the Secretary so 
that when he makes a decision, he is accountable for it. But 
you don't want to precook what it is that he designed by having 
things decided at lower levels. The Secretary has to be 
accountable. The Secretary has to have that authority.
    Now let me speak to one of the concerns that I have, and 
that is it is about the Joint Requirements Oversight Council, 
the JROC. The JROC is meant to be a place in the Pentagon where 
we at the very senior level decide what do we need as a 
requirement to fight together in the future. It should be 
largely populated by people who are responsible for demand, not 
supply. But if you look at the competition of the JROC, it is 
all of the supply side of the equation and not the demand side 
of the equation. It is the Vice Chiefs of the services who are 
in the business of supplying goods, services and equipment. It 
is not the CINCs or the Combatant Commanders who really are the 
ones who say, here is what I need now, here is what I think we 
are going to need in the future.
    So we have a problem with the way the JROC is structured 
today. It is too much oriented around--it is a demand function 
that is run by supply people. That is a problem, and we should 
work on that.
    Now, what I don't think is a good idea is to put more 
supply and demand inside JROC, because that is basically 
deciding issues before the Secretary decides them, and 
ultimately you are holding the Secretary accountable; you are 
not holding the JROC accountable. You have to let the Secretary 
have the full authority to decide and be responsible for what 
he decides. So I would ask you to look at that provision. I 
think it is a very important one.
    I understand exactly what you are trying to do. You are 
trying to strengthen the good friction, the oversight that we 
need, and minimize the bad friction, and I think that is 
exactly the right spirit to have, and I would ask you to think 
about how you have done it in the legislation.
    If I could say a word about core competencies, and, again, 
I understand very much what you are after. You are trying to 
make sure that we focus on what it is going to take to win wars 
not just today, but in the future. But if you start with the 
premise you identify core competencies, I would argue that is 
what the services do well already. I mean, nobody does night 
ops off of an aircraft carrier better than the United States 
Navy. That is a core competency. They do that exceptionally 
well. But what we don't do well are noncore competencies, 
things that are perceived to be noncore competencies.
    But if you start by directing people to work on core 
competencies, you probably are keeping them from looking at the 
big problem, which are the things that aren't core, and we 
should probably think about working that legislation so it 
pushes us in that direction.
    The Chairman. For instance?
    Dr. Hamre. For example, postconflict reconstruction. We are 
not good--we were very good at winning wars. We are not very 
good at building functioning societies after wars, and it is 
unclear when that is a military responsibility and when that is 
a civilian responsibility, and we need to work on that. 
Obviously we are responsible, DOD, we are responsible for the 
security environment, but we haven't been focusing on that like 
we should have.
    Now, you can say maybe that is a core competency now, but 
it wasn't seen as a core competency six years ago.
    So I would ask you to think about, in a slightly different 
way, think about what are the key missions you think we are 
going to have to undertake as a Nation and whether or not we 
are addressing them properly, but if you start by saying, I 
want you, DOD, to focus on core competencies, you are probably 
going to get them to focus on things that aren't problems and 
not look at the things that are problems.
    Finally, could I say a word about the provision you have in 
your bill that calls for creating an under secretary for 
management? I like the idea of having an under secretary for 
management. Now let me explain what I think is the problem.
    Again, I think it is very important to keep a clean 
distinction between staff and line. You know, in a corporation 
you will have a staff headquarters at the corporate 
headquarters, and then you will have line responsibilities, 
line managers.
    In the Defense Department, our line managers, there are 
three line managers: the Combatant Commanders, because they are 
out fighting a war. It is our service chiefs and service 
secretaries; they are running the departments. And then it is 
the defense agencies.
    The defense agencies do not have good management oversight. 
The defense agencies all report to the Secretary of Defense 
through an assistant secretary, and the assistant secretaries 
are basically staff guys. Those are staff functions. Those are 
not line operations.
    It would be very good to create an under secretary for 
management and have that under secretary for management be 
responsible for the defense agencies and for the purple 
activities that fall through the cracks of the Department, and 
we have a lot of those.
    So I think it is a very important initiative. I support 
what you are recommending. I think the way it is currently in 
the bill, it is a little confusing whether you have in mind a 
line function or a staff function. And I think you should take 
a look at that. I personally think you need line management, 
and I think it would be good to have an under secretary who has 
the same responsibilities to the defense agencies that the 
Secretary for the Air Force has for the Air Force or the 
Secretary for the Army does for the Army. I think that would be 
a very good thing to do, and I would encourage that. And I 
would be delighted to work with you and the staff, Mr. 
Chairman, if you want to refine that idea if you think it is 
worth pursuing.
    Let me conclude to say thank you. This really is important 
work. Too often hearings are held about the little issues, the 
daily issues. They are not held about the structural issues. 
And this is a matter of a hearing on structural importance, and 
I think it is really terrific that you are taking this 
opportunity to lead the American people this way.
    Thank you, Mr. Chairman.
    The Chairman. Dr. Hamre, thank you for your excellent 
testimony and recommendations.
    [The prepared statement of Dr. Hamre can be found in the 
Appendix on page 65.]
    The Chairman. Dr. Krepinevich, welcome.

 STATEMENT OF DR. ANDREW F. KREPINEVICH, PRESIDENT, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Dr. Krepinevich. Thank you, Mr. Chairman. As always it is 
an honor to appear before you in this committee.
    I share your concerns regarding the need for analysis of 
military service roles and missions, also core competencies and 
capabilities. I think we all share a concern that despite the 
decade-old rhetoric about the need for transformation, the new 
threats, the new challenges that we see emerging and existing, 
and the new missions that are clearly there, missions that 
certainly weren't there in 1948, I guess it was, when the Key 
West agreement was arrived at, missions like layered homeland 
defense against nontraditional attack by weapons of mass 
destruction, or locating and neutralizing loose nuclear 
weapons, undersea commerce defense, defeating modern 
insurgency, cyberdefense, power projection against rogue states 
armed with nuclear weapons, these sorts of missions for the 
most part didn't exist 20 years ago, let alone 60 years ago, 
and yet in many ways we have been remarkably slow to adapt.
    In fact, when you talk about transformation, our effort 
seems to have been primarily reactive as opposed to 
anticipating threats, anticipating problems and getting out in 
front of them, and even there, when we are trying to react, the 
pace of reaction has been excruciatingly slow.
    Having said that, I am not convinced that a solution to 
these problems, to these broad issues, as the Chairman said, 
can be found in new processes or, to be precise, in new 
processes alone. To paraphrase Shakespeare, I think the flaws 
lie not so much in our processes, but in ourselves.
    What do I mean by that? Well, our organization has done a 
fair amount of study on historical case studies where 
militaries have been confronted with new circumstances, new 
situations, new roles and new missions. As Dr. Hamre said, 
under those circumstances, it is not the existing core 
competencies or set of expertise that you have that may count 
the most. You may have to develop new ones.
    And when you look at how these military organizations have 
adapted successfully, there are a number of factors that come 
through again and again as characteristic of what you look for 
in a military that is adaptive, that is aware of changing 
circumstances and is getting out in front of the threat as 
opposed to reacting to it.
    One is clearly a vision. You know, what are the big new 
threats to our security? What are those challenges? How are 
they going to manifest themselves? What sorts of new 
technologies and capabilities do we have to put in our toolbox 
that might be useful? What new competencies do we need to 
develop?
    Time and again, what you see are very insightful senior 
military leaders, leaders who can think broadly the way that 
this committee is encouraging us to think, leaders like, for 
example, Admiral Moffett, the father of naval aviation; Admiral 
Rickover, the father of the nuclear Navy; General Hamilton 
House, the father of Army aviation.
    And it is not only their intelligence that is striking, but 
it is also their extended tenure. For example, Admiral Moffett 
served in his billet 12 consecutive years as the Navy struggled 
to adapt itself from a fleet centered on battleships to one 
centered on the Fast Carrier Task Force that enabled us to win 
World War II in the Pacific. These leaders were able to 
successfully distill these threats into a series of planning 
scenarios or contingencies for the military.
    And in my testimony, I allude to the famous color plans 
that were developed by our military a century ago in dealing 
with a very uncertain world, a world where we didn't know where 
the next threat was coming from. We were plagued by small wars, 
we were dealing with rapidly advancing technology. And were 
mistakes made? Yes. But did they get it right for the most 
part? Absolutely.
    So in a sense, when you asked the Defense Department, you 
know, what are your defense planning scenarios, you are getting 
a sense of what the military--the problems, the threats that 
the military has been asked to address, the problems they have 
been told they need to solve.
    Now, how do they go about solving the problem? This is 
where process really comes into play. But my experience, and 
certainly the experience of these historical case studies, 
would indicate that a lot of it has to do with military 
professionals practicing their profession. It involves them 
learning skills through professional military education.
    When you look at some of our best commanders in the field 
in Iraq, for example, people like General Petraeus, General 
Corelli, some of the field grade officers, H.R. McMaster and 
John Noggle, these are officers that went off the beaten path 
to develop their professional skills through education. I 
taught with Petraeus and Corelli at West Point. That is five 
years out of your military career, in a sense, if you want to 
call it that, to get that two-year graduate education and spend 
three years on a faculty.
    Professional military education becomes key because this 
kind of thought enables you to get the right diagnosis. It 
enables senior military leaders to avoid putting old wine in 
new bottles. Second, at the schoolhouse, they get involved in 
war gaming and simulations. The military services involve 
themselves in field exercises, and in a sense they take a hard 
look at where they are and where they need to go. It enables 
someone like Admiral Sims in 1925 to sit before a congressional 
committee and declare in heretical terms that the carrier, not 
the battleship, is where the Navy needs to go. It is where an 
admiral like Chester Nimitz can say after World War II, because 
of what the Naval War College did and the exercises the Navy 
conducted to figure out how to essentially address these 
scenarios, address these color plans, that the U.S. Navy was 
not surprised by anything it encountered in the Pacific war, 
including Pearl Harbor, with the exception of the kamikazes. We 
seem to have lost that ability today.
    In 2002, the largest peacetime exercise in recent years, 
Millennium Challenge 2002, was conducted to look at a specific 
problem, and the problem was how do we deal with low-end 
nuclear states who have so-called anti-access aerial denial 
capabilities. We discovered significant problems in our ability 
to deal with that kind of situation and with littoral sea 
control.
    So what does the process tell you to do then to solve those 
problems? Well, what we did was we layered on more process. 
Joint Forces Command introduced Operational Net Assessment. We 
have Combined Joint Task Force Headquarters cells. Now, these 
processes and these headquarters cells may be what we need and 
what we are looking for, but what we really need an answer to 
is how are we going to deal with that particular kind of 
military problem? That is what we want. We want an answer to 
that question.
    Now, as Congressman Hunter said, we want creativity, but 
this kind of creativity creates winners and losers. When we 
talk about a very different problem set, it is unlikely that 
the same old forces, the same old capabilities, the same old 
programs are going to one to one map on to this new 
circumstance.
    So once you start conducting these kinds of exercises, once 
you tell the military this is the new problem set, that is 
where friction, as Dr. Hamre said, really comes into play, 
because you are creating winners and losers, winners and losers 
among service cultures, among service budgets, among service 
programs. And they react rather strenuously in opposition to 
that. That is why change can be so difficult.
    What do you need? You need a Defense Department leadership, 
civilian and military, that is willing to make tough decisions; 
willing to force concentration on the problems; divine the 
lessons that come out of these kinds of processes, education, 
analysis, war games, field exercises, and say, look, we are 
going to make the right decisions here, and we are going to 
make them stick. We haven't seen that capacity, I think, for 
quite some time now.
    It also requires a Congress that is willing to promote 
competition among the services as well as to eliminate 
redundancies.
    There are certain areas where we have built up excess 
capacity over time through competition. There are other areas, 
the new core competencies that Dr. Hamre talks about, where we 
are not quite sure how we are going to solve this problem. Here 
is where we need competition. Here is where some redundancy can 
do you some good.
    A classic example in the American military is in the 
1950's. Each of the services had its own ballistic military 
program, and if you ever see the movie, The Right Stuff, you 
will see we were blowing up a lot of these missiles on the 
launch pad. We were failing left and right, but at the end of 
the day, the Air Force gave us the Minuteman missile, the Navy 
gave us the Polaris, the Army gave us the Jupiter/Redstone that 
launched our space program, and eventually the Army dropped out 
of that mission area, if you will.
    But what you want in a situation where the answers aren't 
obvious, where the missions are new, is competition among the 
services, and you want to encourage that, and you want to 
tolerate honest failure; not incompetence, but honest failure.
    And what you also need, and I think Congressman Hunter here 
said, flexibility. What you need is speed. If you look at the 
kinds of military competitions we are in today, time is 
becoming an increasingly precious asset in terms of security. 
Whether it is trying to keep up with the improvised explosive 
device (IED) competition in Iraq, the war of ideas that is 
being waged within the information cycle in the media, defense 
against cyberattack, covert weapons of mass destruction (WMD), 
biological and nuclear attack, building partner capacity 
rapidly so we don't overstress and overstrain our forces, time 
and the ability to be flexible and use time as an ally and not 
an enemy becomes a very important factor and consideration. I 
don't know how we necessarily work this into our process, but 
it is something that seems to me that we need to address.
    So in short, I think that what we need is a military that 
learns from the past, anticipates in the future, can move 
quickly based upon the conclusions it reaches about this, and I 
would caution against legislation that essentially, while it is 
good in its motivation and asks the right questions, does not 
incentivize the Pentagon as it exists today to really give you 
the kind of answers you are looking for.
    Thank you, Mr. Chairman. I would be happy to respond to any 
questions.
    The Chairman. Thank you very much.
    [The prepared statement of Dr. Krepinevich can be found in 
the Appendix on page 70.]
    The Chairman. And as you know, interest in professional 
military education really came from this committee back in 
1987, 1988 and helped revise the war colleges and increased 
their rigor, among other positive aspects.
    Between the wars, World War I and World War II, we found 
our country in the golden age of military education because 
there were more fine officers than there were billets of 
command, and so many of them found themselves not only in 
classrooms, but teaching in classrooms. And it did a marvelous 
job in preparing them not just what Admiral Nimitz said about 
the Orange Plan and about the Navy War College, but as an 
example, Troy Middleton spent ten years of his life in the 
classroom either as a student or as an instructor, and later on 
he was the corps commander during the Battle of the Bulge, and 
there are others that did the same thing.
    So I welcome your comments. I hope we can follow through.
    We are going to have votes within the near future, and that 
is why I am going to eliminate my questions right now, and I 
will go straight to Mr. Hunter and then the others.
    Mr. Hunter.
    Mr. Hunter. Thank you.
    Gentlemen, thank you very much for your great opening 
statements. You really have covered a broad range.
    Let me go quickly to something Dr. Hamre talked about.
    You talked about demand and supply. One of the frustrations 
that I have seen during the current conduct in the warfighting 
theaters that exist in Iraq and Afghanistan is this: We have a 
supply system which is heavy with power, and we have a 
battlefield system that is using the equipment that is produced 
by the supply system, and it occurs to me that when we see 
things that we desperately need on the battlefield, you have 
lower-ranking officers requesting--making requests to very 
high-ranking officers in the supply system to get equipment to 
the battlefield, which is exactly the wrong--the wrong way to 
do things, in my estimation.
    I think you should have the demand side--that is, the users 
of military equipment should have the stars on their shoulders 
and should be making the demand to the supply side and ensuring 
and holding them accountable if they don't get it.
    Time after time I have looked inside the warfighting 
theaters, and you will see a lieutenant colonel or a colonel 
begging on bended knee to a supply system in the United States. 
And you are right; I think Mr. Krepinevich described it as the 
storekeepers. Essentially Congress and the Pentagon comprises 
the storekeepers for the people on the battlefield, but you 
will see the people on the battlefields and the warfighting 
theaters as supplicants to this supply system which has 
enormous power, which tells them they will get stuff to them 
when they get around to that.
    To combat that, two years ago I put into the law this 
language, and I have got it here. We tried to move the power, 
the brass, to the battlefield, and we mandated the designation 
of a senior commissioned officer with the responsibility of 
administering--who has capability in acquisition experience to 
act as a head of contingency contracting during combat 
operations, who reports directly to the Commander of the 
Combatant Command, the guys we used to call the CINCs. That 
means the guys that is running Central Command (CENTCOM) or 
whatever other area of operations that the warfighter is 
taking.
    Now, that wasn't taken to heart by DOD. And you see the 
same reports coming back from the field that says, here is the 
85 things we asked for; here are the five things that we got 
from this recalcitrant, slow-moving supply system on this side 
of the water.
    So I would like your comment on that.
    Now, to go to Dr. Krepinevich, you made, I thought, a great 
response to the Chairman in my opening statement to the 
effect--and if I am getting it right, tell me, and if I am 
getting it wrong, tell me--but essentially your statement is 
you need to maintain not monopolies for the services in various 
areas, but you need to maintain some competition. Maybe it is a 
little bit like our nuclear weapons laboratories. We set them 
up to compete with each other, and the ones that had the best 
idea would then be, if you had a follow-on program--would be 
the leader in that program, and the ones that didn't, the 
losers, would be the follow-on, or they would be the supporters 
in that particular program. And you used the three missiles 
done by the Navy, the Air Force, and the Army as an example of 
that.
    So the idea of maintaining some competition, of course, 
costs money, I mean, because we are going to look at this thing 
as a committee and say, wait a minute, you got three missiles 
being developed here, if we were back in 1950, and couldn't we 
just designate one service as a missile development service; 
and your answer might be we could do that, but we are not going 
to have the best system.
    Now, let me go--so I would like your comment on how we 
maintain that balance, how we maintain the efficiency that you 
have with a monopolistic system, so to speak, or a strict role 
or mission with respect to acquisition, and yet you maintain 
the creativity, the competitiveness that produces excellent 
systems.
    Last thing, you know, this committee has got a lot of 
innovation, and we have had in the past what I call the Wal-
Mart hearings where we brought in people who had--Members, 
Members who had great stuff that was invented in their 
districts. We just saw some good force protection outside that 
just came from Virginia.
    You know, this committee built a ship. It wasn't built by 
Naval Sea Systems Command (NAVSEA). It was built by the Office 
of Naval Research because we made them build it. We built a 
ship that is now the fastest ship in the Navy. It goes 60 miles 
an hour. The leadership of the Navy sat where you are sitting 
and said, we need a couple of things. We need speed with our 
ships. Then they said, we have got these high manning levels, 
these three and four and five manning-person levels in our 
ships. We need to knock that down. We need to go to low-manning 
levels. And then, you know, we need this multirole capability. 
We want ships that can strike, we want ships that can 
accommodate Special Operations and mine lanes and things like 
that. We want ships that can operate unmanned aerial vehicles 
(UAVs).
    This committee built a ship. We built a ship called the X-
Craft. We built it up in Mr. Larsen's district up in 
Washington. This ship called the X-Craft, now I think named the 
Sea Fighter, goes 60 miles an hour. This ship has a 
capability--it has got a UAV platform, which the Navy told us 
they needed. It has got a helicopter platform. It has got a 
Special Operations capability, and you can stuff it with 524 
medium-range ballistic missiles, which is roughly four times 
the loadout of ships that cost ten times as much as this ship 
and have enormous strike capability.
    In fact, the former Under Secretary of the Navy went out 
and visited the ship, went on it during its operations, wrote a 
glowing letter about what this ship does. That ship was created 
by the Armed Services Committee by the members who sit on this 
committee.
    The Navy hates it, and the same admiral who gets up and 
makes the Rotary Club speech about transformation saying we 
need speed, multimission capability--it does all of this, 
incidentally, with a crew of 26 people to go to low manning. 26 
people. So the same admiral that makes or Secretary who makes 
the statement that we need speed, we need multimission 
capability, we need firepower, and we need low manning levels, 
he steps off the speaker's dais, and a reporter comes up and 
says, so what are you building this year, Admiral? And he says, 
let me see, an attack submarine, a carrier, and a couple of 
guided missile destroyer (DDGs). And the reporter said, what 
about the speech you just made? He says, that was a speech. 
This is what we are building.
    How do we force our services to break out of this role that 
they seem to fall back into so readily? That is my question.
    Dr. Krepinevich. Goodness.
    You need to--there is--as Dr. Hamre said, and you said, 
Congressman, you need to look at the resource issue as well. 
And I think part of any look at roles and missions is to look 
at where you have excess capacity, where you have capacity in 
missions that seem to be progressively less relevant.
    Let me give you two examples. In the second Gulf War, we 
used 40 percent of the strike aircraft in terms of numbers that 
we did in the first Gulf War because they have become so much 
more effective with the advent of precision munitions. This 
isn't a mission that is important, but it is an issue where 
precision munitions arguably have given us excess capacity for 
certain kinds of contingencies. And then you look at how many 
more major combat operations where we are going to find an 
enemy like the Republican Guard like we encountered. So that is 
one possibility.
    Another area where we may have excess capacity is in ground 
forces oriented on traditional or conventional warfare. The 
warfare of choice of our enemy seems to be irregular warfare, 
as you pointed out in your opening statement. What is the Army 
doing? The Army is going to take the 65,000 soldiers that have 
been approved and authorized, and they are going to build six 
more brigade combat teams (BCTs), which are not particularly 
oriented on this kind of warfare, nor is the Army in general.
    So, again, we are in a situation where in certain areas we 
have excess capacity.
    In terms of not creating monopolies and promoting 
competition, let me just give you one example. For at least a 
decade now, the services and people like us having think tanks 
have been talking about the antiaccess aerial denial threat, 
antiaccess referring particularly to the ballistic and cruise 
missile threats and positioning their forces at fixed forward 
bases; and the aerial denial threat being the threat to naval 
forces operating close to the coast or in constricted waters 
like the Persian Gulf, for example. And exercises in war games 
have shown that this is a problem. This is something that needs 
to be addressed. This is something that is only going to get 
worse over time as technology continues to diffuse.
    Well, there is no obvious answer as to what service should 
have predominance in dealing with this kind of threat to our 
ability to protect power. It could be that missile defenses are 
the answer, or it could be that long-range strikes that destroy 
the enemy's missile forces combined with Special Operations 
Forces that battle damage assessment and so on is the answer. 
Or the answer could be in networkcentric warfare, the idea that 
you can greatly--you can use information technology to have 
highly distributed, highly networked forces that don't really 
rely on large fixed forward bases.
    And here is where you can have a healthy competition. You 
can say, look, this is an extremely important problem for the 
American military to be able to solve for our vital interests. 
We don't know the answer to this. We are going to think about 
it at our war colleges. We are going to war-game it. We are 
going to field-exercise it. We are going to invest some money 
in prototypes, and we want you services to compete for the best 
way for us to be able to deal with this problem.
    And maybe the answer in the end is heavy on missile 
defense, or maybe it is heavy on networkcentric operation. We 
don't know. We know it is important to find the answer. It is 
important to find the answer quickly before our enemies 
threaten us, and it is important to get it right.
    So that is an area where I would say a healthy competition 
and the sorts of things that you mentioned, and this has been 
done before. Congress has helped the military do smart things, 
and it has helped it avoid doing dumb things. As Congressman 
Skelton surely knows, in 1926, the Congress told the Navy go 
out and build 3,000 planes, and we will fund that, because we 
know the commercial aviation industry is on its duff. We know 
you don't have much of a big budget, but we think this is an 
area worth investing in. And about seven years later when the 
Navy wanted to build some god awful thing called the flying 
deck cruiser, the front end was a cruiser and the back end was 
a flight deck, Congress said not only no, but hell no. And 
thank God they did because it was a terrible idea. What we 
ended up winning the war with, of course, was aircraft 
carriers.
    So congressional involvement in terms of oversight is 
absolutely crucial, but it is that mix between identifying 
where the excess capacity is, identifying where the big 
problems are, and promoting innovation and competition to get 
the best answer. That would be an enormous service. It is a 
service that Congress could provide. It is a service that 
Congress has provided by virtue of its oversight.
    Dr. Hamre. Sir, I will be very brief.
    To the question of the acquisition process, our Nation has 
been at war now for four years, but our acquisition community 
has not. I mean, it is a peacetime mentality, I am afraid, and 
I think that is structural. When Goldwater-Nichols was passed, 
the acquisition reforms were not part of Goldwater-Nichols, but 
they were attached at the same time.
    We made a mistake, in my view, at that time. We took the 
chiefs, the military service chiefs, out of the chain of 
command for acquisition. We made the service chiefs responsible 
for buying people, facilities, training, but we took them out 
of the responsibility for buying things, and we put that in a 
different chain, and that has created a fault line within the 
Department where we do not have the capacity to hold people 
accountable.
    I think the chiefs ought to be brought back in the chain of 
command and made accountable for acquisition.
    The Chairman. Thank you so much.
    Mr. Spratt.
    Mr. Spratt. Thank you for excellent testimony, very 
provocative testimony.
    You mentioned the Under Secretary for Management, Dr. 
Hamre. You in particular addressed that, but you say what we 
have got in the proposed legislation is muddy.
    How do you avoid, if you are going to have this creature 
called the Under Secretary of Management, which you support, 
basically overlapping, muddy definitions?
    Dr. Hamre. Sir, I think--what I think is muddy is the 
distinction between line responsibilities and staff oversight, 
and I see both of them inside the provision that you have 
written. I think you need to decide which one you want.
    I personally think it would be good to have an under 
secretary responsible for the defense agencies that has the 
same responsibilities that a service Secretary has for putting 
together a budget overseeing, being accountable for the 
activities inside that service. I would make them a line 
manager and have them responsible for running those defense 
agencies. That would be a line function.
    Now, you could create it exclusively as a staff function, 
and then it is kind of a--it is an inspector general on 
steroids kind of thing, or Viagra, I guess.
    But I personally don't think that is your best answer. I 
think it would be good to get management brought in, management 
over the defense agencies. These are now large businesses, and 
they deserve first-line talent that is good at managing them 
and running them.
    Mr. Spratt. It seems to me the problem we have as a 
committee, and I appreciate your recognition of the committee's 
role. I think there is clearly one. And I think there are 
examples from the past that we should hold out to try to 
emulate, each of us, from Ike Skelton to Bill Nichols and Arch 
Barrett, let's not forget him, the players in that process who 
really made fundamental changes. But we really run risk here in 
the House and the Congress if we get too prescriptive in 
defining roles and missions. We want our judgment to be 
executed and carried out, but if we get too prescriptive, we 
encourage jurisdictional fights between the services. How do we 
tread that line?
    Dr. Hamre. Sir, again, I think it is positive and negative 
friction. We need you to create positive friction. And that is 
through this oversight process. I can't overstate how important 
it is. The Department really does take seriously when they have 
to come up and testify to you. They really do. It has a 
powerful impact. You may be frustrated that it doesn't produce 
results all the time, and then you should just follow up. I 
always used to say in the Pentagon nobody takes you seriously 
until after your third meeting on the subject. Because at the 
first meeting, people are saying, oh, okay, that is what it is 
about.
    The second meeting they try to come and tell you, oh, we 
already did it, but we did it a better way, and it was the way 
we were planning to do it. And it is only at the third meeting 
when they say he really cares about this. You tend to hold 
oversight hearings, but you only hold one. You need to come 
back on these things. You really need to come back on 
oversight. And I think it is a powerful tool, sir. I agree with 
you, don't tell the Department how to organize. Hold them 
accountable for efficient organization.
    Mr. Spratt. Let me ask both of you a specific question 
about a problem that is now before us, and the issue now before 
us, and that is UAVs. Who is to have executive management 
oversight at least of UAVs? How would you resolve that in the 
sense of assigning roles and missions? Because this could be 
part of air warfare in the future in a much bigger way than it 
is now. This could be a 1947-like decision.
    Dr. Krepinevich. Well, again I would go back and look at 
what I have called the problem set. You know, what are the key 
set of scenarios or contingencies that the military is looking 
at? And there may be an executive agent for unmanned aerial 
vehicles for purposes of administration, but I would not 
restrict any of the services in terms of competing. If they 
thought that there were--there is or are particular UAV 
programs that would help them successfully execute what they 
see as their part of that mission. And so for example the QDR 
lays out three major areas of challenge. One is irregular 
warfare, a second is essentially a proliferated world with 
nuclear rogues, and third is countries at strategic crossroads, 
which I believe is code for China.
    Mr. Spratt. Do you think sorting through this is our 
responsibility primarily? We will certainly have to sit in 
judgment on it? Is it our responsibility primarily or should 
the JROC be undertaking this themselves?
    Dr. Krepinevich. In the ideal world the JROC would 
undertake this. On the other hand, I don't think during the 
course of its existence the JROC, at least in my estimation, 
has really contributed a lot in terms of reconciling these 
kinds of issues. Certainly not if you are saying looking at the 
broad sweeping changes that we are confronting. And what 
programs need to be accelerated, where does competition need to 
occur, what major programs need to be terminated? I don't think 
the JROC has really produced those kinds of results. And in 
part, it is because those vice chiefs have to go back to their 
services at night and report on what happened.
    And there was a term that developed in the 1990's called 
the volunteers dilemma. I would be glad to elaborate on it. But 
it essentially spoke to the disincentives that services had to 
really make those kinds of trades, to give up certain programs 
for the opportunity to get into a new area or do something 
different. And they learned their lesson--the Navy in 
particular learned their lesson the hard way in 1994. And we 
have seen the results ever since.
    Mr. Spratt. Dr. Hamre.
    Dr. Hamre. Mr. Spratt, first of all, let me congratulate 
you. I think it is much better if you got a problem, force the 
Department to wrestle with the problem. Don't create a generic 
roles and missions process to get out of a specific problem. 
This is a specific problem here. And it is good for you to bore 
in on it. And it's every bit of the responsibility of this 
committee to bring the Department's attention to it. So that is 
a very good thing you are doing. I think any time you get new 
capabilities it is probably okay to have some competition.
    Now, to be honest, we haven't--we have not yet developed 
really highly reliable UAVs. We are still in an infancy in many 
ways on UAVs. And so some competition here, in many ways, it is 
a little like where we were when we had all the X planes. It is 
not bad. It doesn't mean, however, that you should not be 
forcing the Department to confront the larger question of how 
do you plan? Where are you going? What is your strategic 
direction? How does it fit with each of you? And when you are 
talking about your core competencies, how do UAVs fit with 
that? Is there a more efficient way to do it from a joint 
perspective? Those are all extremely important and very 
legitimate inquiries that only you can bring their attention 
to. That will not naturally come out of the Department. Only 
you can make that happen.
    The Chairman. Thank the gentleman. Before I call on Mr. 
Saxton, let me say that your testimony is just excellent, and 
we appreciate it in the interests of the committee. This is 
historic turf. Our committee needs to follow through on it. And 
you continue to use the word ``oversight.'' and I hope this 
decade will prove that this committee is good at that 
oversight. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman. Let me just follow up 
on something the chairman just said. I believe that what we 
are--the discussion that I have heard here this morning has 
been extremely helpful and educational, and it has caused me to 
think some things that perhaps I wouldn't have thought had I 
not been part of this conversation. So thank you for your 
straightforward approach.
    The term ``changing circumstances'' has been mentioned here 
a couple of times this morning. And I think it is very 
important that we understand--it seems to me that it is very 
important to me that we understand that changing threat is, in 
fact, changing circumstances. And that looking forward it is 
very important that we understand what those changing 
circumstances are and what they are likely to be going forward. 
And that the structure of our military needs to be designed in 
order to be flexible enough, as Ranking Member Hunter said, to 
be able to look down the road to understand what those changes 
are about and how to deal with them.
    In the current situation, it seems to me that we can learn 
some lessons by looking at a couple of changing circumstances. 
One is a changing circumstance which has occurred over the last 
20 years or so in terms of the ideology of the foes that we 
face. Certainly during the Cold War, we had a foe which had an 
ideology, and we were able to design a defense mechanism that 
held them at bay until they were economically defeated. And 
that was quite a thing. Today's ideology of our foe is much 
different. And the mechanisms that we used during the Cold War 
no longer seem to work. Second, technology is a changing 
circumstance. Nuclear technology is no longer new, but nuclear 
technology is changing in terms of its dissemination. Certainly 
a changing circumstance. Biological weapons are relatively new 
and extremely dangerous and something that we need to deal 
with.
    And I might say that there is a new world in terms of the 
Internet. Someone pointed out to me not long ago when we were 
talking about the Fort Dix Six terror cell, somebody said they 
weren't connected to al Qaeda. And somebody else said, oh, yes, 
they were, because they used the al Qaeda training manuals that 
are on the Internet. And who knows how many other Fort Dix Six 
groups there are who are being trained without training camps 
or training bases because of information that exists on a new 
world called the Internet? And so these changing circumstances 
it seems to me are things that we need to be able to deal with. 
And my question then comes how do we structure our defense 
mechanism to deal with these kinds of rapidly changing 
circumstances?
    Dr. Krepinevich. You raise at least three new problems, 
Congressman. One is ideology linked to modern information 
technology. Modern insurgency is similar to traditional 
insurgency in that the insurgents are trying to mobilize the 
population against us or against a regime. As you pointed out, 
they have a mass media now that they never had access to 
before. Things like the Internet that helps them recruit, 
organize, train and equip, lessons learned. That is a situation 
that we have to essentially reorient ourselves toward. It has 
to be a core mission. The Secretary of Defense directive, I 
think it is 3000.05 says these kinds of operations are now a 
core mission co-equal with conventional or traditional 
operations. And what we have to do, again, as I said before, is 
it is not going to be necessarily an acquisition process, 
although that might be important. But what is going to be 
important is to begin to understand the cultural terrain that 
we are going to be operating on. And that is going to come from 
our war colleges, from academia and so on, to exercise. We are 
changing our training ranges, such as the Army's National 
Training Center, to put people into this kind of environment. 
But what you want is a sense from the military, you know, this 
is a new problem.
    What is--how do you plan to solve this problem? What are 
each of the services going to do to defeat modern insurgency 
warfare? Whether you find it in Iraq or whether there is a 
failed state in Pakistan or Nigeria or Indonesia or in Latin 
America. You know, what is our approach for dealing with this 
new and different kind of problem? In terms of nuclear and 
biological weapons, the big threat now, or one of the big 
concerns is the fact that with a proliferated world ambiguous 
aggression becomes much more of a risk, especially with the 
possibility of a covert attack on the United States.
    I was at a briefing of one of our commands, and they said 
we looked at Katrina and we looked at one of these, and this is 
Katrina times ten. And so the logical question is wait a minute 
now, in the Quadrennial Defense Review, we say we are going to 
defend the homeland in depth. Well, what does that mean? How 
are we going to do that? Are we going to try and hit the enemy 
before he hits us? Fine. But how do we protect the approaches 
to our coastlines and our borders? How do we control those 
borders? How do we detect, particularly in the case of a 
biological agent, an attack so we can begin quickly to 
undertake remedial operations and limit the damage? How do we 
do what the military calls consequence management? It is what 
happens after the weapon goes off. How do we think about 
retaliation?
    So in my mind process is good, but I would rather have some 
answers to these kinds of questions, and say look, not only how 
is the military, but I think John may have alluded to this, how 
is the U.S. Government prepared and organized to deal with 
these kinds of problems? I mean, I don't want to oversimplify 
it, but at the end of the day it is as a good doctor, how we 
diagnosed the real threats to our security, the threats as you 
point out, that are changing, that are new in form, and new 
perhaps in the scale at which they might be mounted. And what 
is it that we are doing to solve them? It is really not rocket 
science. It is some pretty basic direct questions that you 
would like to get answers to.
    And I will tell you from my own personal experience, being 
part of a group that looked at the aftermath of Millennium 
Challenge in 2002, where our fleet got sunk essentially in the 
Persian Gulf, or heavily damaged by the opposition force, that 
the response wasn't, well, how do we operate our fleet 
effectively under these kinds of circumstances? It was all 
about process. It was about, well, we need an operational net 
assessment. We need joint task force standing headquarters 
elements. And again they may be important to improve the 
effectiveness of what we do, but we need to think about what we 
are going to do to deal with these problems. And that I think 
is the common frustration that I share with this committee. We 
see these problems emerging, and we would like to get some 
sense of just how we are going to deal with them. And we have 
seen what happens when you run into a problem like modern 
insurgency warfare in places like Iraq and other parts of the 
Middle East and you haven't thought about it in advance. And 
that is my concern.
    The Chairman. Thank you very much. Several who are on the 
list that arrived before the gavel have stepped out, but we 
will go ahead with that list. The next gentleman that is 
present is Mr. Thornberry. It looks like Mr. Meehan and Mr. 
Thornberry and then Ms. Davis. Mr. Thornberry. Or excuse me, 
Mr. Meehan first. I am sorry.
    Mr. Meehan. Thank you very much, Mr. Chairman, and thank 
you to both witnesses for outstanding testimony. I just have 
one question. The Quadrennial Defense Review process, does it 
provide the best venue for evaluating the division of labor for 
the roles and missions of the Department of Defense? And if it 
does provide the best venue, why do you believe that this 
analysis appears to have been done in such a cursory way in 
recent years? For example, there was a one paragraph summary in 
the most recent QDR. And if it doesn't provide the best venue, 
do you--do either of you believe that Congress should require a 
separate review for consideration of roles and missions?
    Dr. Hamre. Sir, I participated in three QDRs and I have 
watched three QDRs--no, I say I participated in two and I have 
watched three QDRs. They almost all start out as a very grand 
process of thinking about the future, and they always end up as 
a budget drill, because that is ultimately what you have to 
register. You have to register your choices and put budget 
plans against those choices. You do need a framework that lifts 
you out of the mechanics of budgeting to a larger vision. And I 
think that the QDR is helpful in that regard. Roles and 
missions is a constant process that is going on all the time.
    The competition between the services over how to deal with 
a problem is ongoing. I think it is a good thing to have it 
ongoing. My fear is that if we elevate it and say we are going 
to--every four years we are going to force everybody to go 
through it, you are saving up all of the tensions, and you just 
get the negative side of that roles and missions review, not 
the positive side. Roles and missions is best when you have to 
confront the advantages of new technology, the constraints of 
old technology, the affordability of force structure, etc. And 
the services have made enormous changes over the last ten 
years, but it has never been called a roles and missions 
review. We used to have an enormous amount of the Navy, for 
example, that was dedicated to submarine warfare. You know, 
P3s. We had a huge P3 fleet to do submarine warfare. We have 
retooled the P3 fleet to do useful things because it is not 
hunting submarines any more.
    This is what process is going on, sir. If you force it to a 
grand process, you know, a once every four years look at roles 
and missions you are going to get a lot of friction, negative 
friction I am afraid. And I would like to find a way to avoid 
that.
    Mr. Meehan. Would you agree it has come to be more cursory 
in the last few years?
    Dr. Hamre. I think the explicit roles and missions reviews 
have become cursory because they are always a fistfight, and 
people don't want to just end up spending energy in a 
fistfight. What I think you should do is target issues that you 
think are important, bring in outside counsel to help you. If 
you need to create a commission, create a commission. But find 
issues that you think are really important. I personally think 
back to Mr. Saxton's question. I think the most important issue 
we should be facing in roles and missions is who has 
responsibility for preventing a nuclear terrorist incident in 
this country? Who is doing that? And what is the plan? Now, 
that is a very concrete task. And that is a mission worth 
drilling in on. And if you take things like that and say let's 
get to the bottom.
    Who in the Department is working on that? Are you working 
together? Do you have integrated plans? Are you working with 
the rest of the executive branch? That would be a great 
service. But if you just step back and say I want you to do a 
roles and missions review, you are going to get the Army and 
the Marine Corps ready to fight each other about infantry, and 
the Air Force and the Marine Corps and the Navy getting ready 
to fight each other about aviation. It isn't going to produce a 
positive result. But if you pick a problem you know exists and 
say we are not dealing with it, and force them to get in on it, 
that would be a great service to the country.
    Dr. Krepinevich. I would agree with a lot of what Dr. Hamre 
says. In terms of the potential value of a Quadrennial Defense 
Review, I think at least among us wonks in the think tanks 
there was a lot of anticipation about what would come out of 
the most recent one. It was the first one that had been 
conducted since the 9/11 attacks, since the invasion of 
Afghanistan and Iraq, confronting new insurgency, concerns as 
Dr. Hamre says about homeland WMD attack. You had a sitting 
Secretary of Defense, so he wasn't new. He had four or five 
years of experience in sort of deciding what was important to 
him.
    So of course, the great disappointment that essentially no 
tough choices were made, no new directions were really taken 
on. But I think there is a value there. And my experience, like 
Dr. Hamre, I have been part of every review going back to 1989. 
It is kind of like Ground Hog Day for us. Every four years we 
wake up and here we are again. But going through every one 
since 1989, the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff have to know going in pretty much what 
they want to do, what they see as the big problems, and the 
answers that they are going to demand of those problems. They 
have to be willing to put those to the services. And they have 
to be willing to act if the services don't give them a good 
answer. And in 2001, my experience was Secretary Rumsfeld said 
these are new problems. And I think he expected different 
answers, you know, changes in the program and so on. And he 
sort of got the Henry Ford answer. You know, I will give you 
any Ford you want as long as it is black. You can have any 
program you want as long as it is the program of record. And 
under those circumstances you have to be willing, independent 
of the services, to make decisions. And you have to be able to 
make them stick, because you have worked it with the Hill and 
you have also worked it with industry.
    And that was not something that they had prepared 
themselves to do, as you know from personal experience. But if 
you are expecting a bureaucracy of hundreds of thousands of 
people to give you the answer of where future warfare is going, 
where the big problems of the world are going, and to identify 
the scenario set that is the right scenario set to capture 
these problems, you are not going to get it. The leadership 
here has got to come from the top. It has got to be directive. 
And you look for advice and insights from your staff, which you 
hope is a good staff. But you have got to--I think it has got 
to be driven by a Secretary of Defense and a Chairman of the 
JCS that have a vision, a common vision of what the big 
problems are, and at least some sense, a point of departure of 
sense of how they are going to solve them.
    Mr. Meehan. Thank you.
    The Chairman. I am intrigued, Dr. Hamre, about your 
suggestion in looking at the problems rather than creating the 
fistfight that we anticipate in roles and missions within the 
Department between the services. May I make a request of each 
of you to give us a list of five--and for the record, not 
today--but make a list of five of those unanswerable questions 
that should go into the roles and missions mix? And I realize--
I don't want you to just fly them by the seat of your pants 
today, but think about them, and within the very near future 
give them to us for the record. Thank you. Mr. Thornberry.
    [The information referred to can be found in the Appendix 
beginning on page 89.]
    Mr. Thornberry. Thank you, Mr. Chairman. And first I want 
to thank you for having this hearing and asking these questions 
and for having these witnesses who, with the organizations they 
represent, I think are among the leading national security 
thinkers in the country. It does seem to me, though, that today 
we are just beginning to scratch the surface of a lot of 
questions and issues that we need to pursue in this committee 
in the future, as the witnesses have said. And I hope that we 
can do that.
    I have listened to you both. Just to follow up on what the 
chairman was just saying, I have listened to you both saying 
you need to take specific problems, try to work them through, 
whether it is the UAV executive agent, or whether it is nuclear 
prevention, or whether it is who is responsible for cyber 
warfare. To take another example, press reports show that it 
looks like Estonia was attacked in some ways. Who is 
responsible not only for defending us and our allies, but for 
having a strategy?
    When you are not dealing with tremendous numbers of things 
coming off an assembly line, and you are in some ways dealing 
with more intellectual problem sets, whether it is the war of 
ideas or cyber or other things, it seems to me more difficult. 
So I hear what you are saying about that. But as I look at the 
new chair of the personnel subcommittee, I also think about the 
incentives to changes in culture that come with personnel 
rules. That was part of Goldwater-Nichols. It wasn't just 
rearranging the boxes. It was saying if you are going to get 
promoted, you got to do joint duty. And so my question to you 
is, understanding what you say about the specific problems, are 
there incentives, areas that we should look at to encourage 
creativity and speed and flexibility for the problems that we 
may see distantly or may not even see? Ways to improve the 
system that do fall within our responsibility, or at least 
areas that we can encourage?
    Dr. Krepinevich. Oh, goodness. I think the ultimate 
incentive really is the power of the purse. It is the committee 
deciding itself, you know, what are the important challenges 
confronting us? And again, they can't just be loose nuclear 
weapons. It has to be specific enough so that you can pin the 
Defense Department down in terms of, all right, how are we 
going to solve these problems? What tools come out of the 
toolbox in terms of forces and capabilities? Which ones seem to 
be left in there? And again, use the power of the purse.
    And in some cases, perhaps the power of legislation to help 
promote that kind of activity. Legislation pertaining, for 
example, to the process that I discussed, which is not only 
professional military education, to make sure that--for 
example, there are a lot of stresses on the Army right now, and 
there are a lot of pressures to ignore what is going on in the 
school house. And yet, you know, to do that is to eat our seed 
corn. We have just passed in the world the demographic point 
where over 50 percent of the world's population now lives in 
urban areas. Ten years ago, a commission that I was on 
recommended the establishment of a joint urban warfare training 
center, which the Defense Department has never gotten around to 
making a priority.
    But again, that can help you find answers to where future 
warfare might be going. It may be not only incentivizing the 
Defense Department to decide who is responsible for cyber 
warfare, but asking ourselves the question are the best cyber 
warriors really in a military uniform? Are they perhaps working 
for Citigroup and firms like that that are attacked on a 
constant basis that realize monetary losses? Or maybe, again, 
among private citizens. Incentivizing groups.
    And again, about ten years ago, the Marsh Commission met, 
trying to look at these sorts of questions, and found that 
business didn't want to work with the government. Business 
didn't want to work with the government in terms of cyber 
warfare because they didn't trust the government to keep a 
secret. They didn't think the government was better than they 
are in terms of protecting it. And they didn't trust that the 
government could do any kind of an exceptional job of 
protecting them. So can we reduce the barriers to those kinds 
of cooperation? So those are, I guess, a few of the things that 
occur to me off the top of my head.
    Dr. Hamre. Sir, it is a huge question. And to be honest, I 
don't think I have very good answers to it. With your 
permission, I would like to come back, if I could. Could I 
offer, however, two comments about some structural things I 
think that would be very helpful for you to consider? First, we 
do not have an adequate or strong enough voice for the people 
who are most interested in joint operations, the combatant 
commanders here in Washington. We do not have that voice 
adequately presented in Washington. The JROC, which is a demand 
office, is populated by supply people. We need to get that 
stronger voice here. And how do we strengthen the Joint Forces 
Command? Or do we bring--do we make the deputy of the Joint 
Forces Command a Washington guy who sits in the JROC? Maybe 
sits in the Tank? I mean how do we get a stronger joint voice?
    I think if you and the committee and the committee staff 
could work on that it would be great. I have my own ideas, but 
they are not necessarily well developed. But I would be happy, 
and I think it would be great if you could work on that.
    The second issue I would encourage you to look at, we have 
a superb officer corps, because we buy ten percent more 
officers than we need for all the billets that we have. And we 
use that ten percent to be able to send them to training, to 
joint duty assignments, to a year off working for the State 
Department. In other words, we grow a phenomenal officer corps 
because we budget an excess that they can then go off and do 
it. You don't have to have everybody in every job. When it 
comes to civilians, we do not do that. We only budget maybe one 
half of one percent. And so there isn't enough excess capacity 
where you could force civilians to go get joint experience. If 
you want to get an experienced person at DOD who knows 
something about State Department operations, you know, you got 
to dig it out of hide, because there isn't that overhead.
    Now it doesn't have to be ten percent. And it certainly 
doesn't have to be ten percent of the entire officer corps. It 
is probably the GS-14s, 15s and up where you budget a surplus. 
But we do not budget enough overhead for civilians. And this 
would be maybe, you know, $50 to $70 million a year on--but 
that is not expensive when you think about the talent you could 
be buying. So I would ask you to look at that as well, sir.
    The Chairman. Thank the gentleman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. I want to congratulate 
you for the committee stepping up to its real responsibilities 
by asking these tough questions, and I appreciate the expert 
testimony of the witnesses. Also I want to thank Dr. Hamre in 
particular, because your reports from CSIS, Beyond Goldwater-
Nichols, have been extremely helpful to the committee. And we 
are particularly sensitive of the section on Congress not 
necessarily meeting its responsibilities. We hope to improve on 
past records. In your testimony, Dr. Hamre, you mentioned, you 
suggest perhaps we need to have a four-star general to advocate 
more for the demand side in the Pentagon. Could you elaborate 
on that suggestion?
    Dr. Hamre. Thank you, sir. Currently, we ask that--the 
voice for that four-star voice outside of the chairman and the 
vice chairman is really Joint Forces Command. Joint Forces 
Command is extremely important, probably doesn't have enough 
horsepower to be able to do all of what is needed. It could 
come from strengthening the Joint Forces Command commander, 
give him more resources, more depth. Or it may be creating 
maybe a deputy to the Joint Forces Commander who is actually in 
Washington. Some way we have got to get that voice more in the 
Pentagon, not just in the Department. You know, when you are 
located 150 miles away you are not at the key meetings all the 
time. We need to have that voice in the meetings, the key 
meetings.
    Mr. Cooper. Would that do enough to address the supply and 
demand imbalance that you mentioned in your testimony? That 
one----
    Dr. Hamre. No, sir. You know, Washington is about supply. I 
mean it is about the institutions that provide things looking 
forward. And we don't do nearly the quality job for oversight 
and follow through. We never have. I must confess when I was 
staffing over in the Senate side I did not hold many hearings 
that looked at what we had done. I was always organizing 
hearings for what we ought to do for the future. We don't do a 
good job of assessing our current operations. And I think that 
again comes with oversight. I mean who is it, General Mark 
Clark that said organizations do well the things that the boss 
checks. And you are the boss.
    Mr. Cooper. Your suggestion that the Under Secretary for 
Management be focused on defense agency problems, what recent 
problems do you have in mind from the defense agencies that 
they could do a better job of supervising?
    Dr. Hamre. Well, sir, I will use this as--again, I am very 
careful, I don't want to criticize people when I don't know the 
decisions that they had to make. So let me go back to something 
that was a problem we had that I felt I didn't deal with very 
well. When the Defense Commissary Agency was going to bring in, 
you know, these bar code scanners, you know, that you have in 
the grocery store, we--it took us two years to buy through an 
acquisition process a bar code scanner. Two years. Commercial 
vendors you could have had this out in the commissaries within 
two months. It took us two years. And that is because there 
wasn't sufficient high level attention, there wasn't an 
insistence on performance along the way. We let the 
acquisitions system grind on mindlessly. And I think it is that 
sort of--we need a business man who is overseeing the operation 
of the business activities of those defense agencies.
    Mr. Cooper. Your suggestion that we put the service chiefs 
back in responsibility for some acquisition decisions. What 
changes of behavior do you think that would cause?
    Dr. Hamre. Well, sir, again my personal sense is that where 
DOD gets in trouble is when there is--when it is an unclear set 
of authorities and responsibilities. And we have an unclear set 
of the responsibilities. We get the service chiefs that are 
designing budgets, we get the service chiefs that are sitting 
in the JROC and putting in on requirements, but the service 
chiefs are not responsible for the outcome of the acquisition 
system.
    That is really in a separate chain. And so it is that fault 
line when they aren't completely--they have to be accountable 
and they have to be responsible, but there is now a breakdown. 
And we have not done well in equipping a force that is at war. 
And I can only say that is because you haven't put that 
responsibility on one person and say you are accountable here. 
I do not want to see troops without flak jackets. I want that 
fixed, and you got a week to fix it. You know, that is the kind 
of stuff that we need do to get the acquisition system moving.
    Mr. Cooper. Dr. Krepinevich, in the short time remaining, I 
hate to ask you a tough question, but if we were to call for a 
hearing in the next couple of weeks from the Pentagon on who is 
in charge of defending the homeland against rogue nuclear 
attack, what is the likely process in the Pentagon that would 
go on between now and that hearing other than panic?
    Dr. Krepinevich. Goodness. Well, I think they would 
probably call up Northern Command and assign the task to them 
of responding. There are multiple entities right now that are 
responsible in some way, shape or form to dealing with an 
attack on the United States. And it is not just the Defense 
Department. It is other branches of the government in terms of 
the executive branch, but also State and local, obviously, 
authorities in terms of responding. And again, that is an area 
where there are so many seams and so many levels of 
responsibility. You know, I have had conversations with people 
at the Department of Homeland Security (DHS), people on the 
Homeland Security Council and so on, and it is a big problem. I 
think as the chairman alluded to, he mentioned 1958. You know, 
that was 11 years after the Defense Department was formed. And 
we still had major problems to sort out. We were fortunate then 
that in the span of those 11 years we never were attacked in 
the way we fear we might be today in our homeland.
    So again, I think that is one of those areas where, as Dr. 
Hamre says, boy, the responsibilities aren't clear, you know, 
who is going to do what and when and how does that all fit 
together? Again, that would be again a great opportunity to 
begin to look at, okay, what are the contingencies? You know, 
let's get the relevant organizations together and see how 
effectively we would respond. I could go on at length about 
some of these issues. Congressman Thornberry and I are on the 
advisory board of Joint Forces Command. About a year or so ago 
we were down for a briefing, and they were looking at Hurricane 
Katrina, and the response there, and they were looking at a 
nuclear event, and the conclusion was the nuclear event was 
sort of an order of magnitude at least more challenging than 
Katrina. And so you get a sense of the magnitude of the 
problem. And of course what you want to jump up and scream, 
okay, Joint Forces Command, how are we going to solve this 
problem? You know, we just want to know. And again, there, I 
think as Dr. Hamre alluded to, there is a lot of stay in your 
lane, don't get out of your lane, you know, this is what you 
are responsible for and so on. You can just see how it kind of 
hems in that kind of organization. And it does it I think to 
the detriment of our security.
    The Chairman. Thank the gentleman. Dr. Gingrey?
    Dr. Gingrey. Mr. Chairman, let me, first of all, thank you 
for holding the hearing. I think this has been one of the more 
interesting ones that I have attended in the five years that I 
have been on the committee. Dr. Hamre and Dr. Krepinevich, your 
testimony, your oral statements, and your written testimony was 
very, very good. I find some of your thoughts, particularly Dr. 
Hamre in regard to JROC, very, very interesting. And I would 
like to hopefully have an opportunity to follow up on that with 
you. I particularly wanted to ask a question about the 
education requirements under Goldwater-Nichols for our general 
and staff officers, our flag officers. The Key West agreement 
was in 1948. I was in the first grade at that time, and not 
thinking too much about Key West agreement. I obviously was not 
here for Goldwater-Nichols, and learning more and more about 
that. But I wonder if the unintended consequences of Goldwater-
Nichols and the jointness requirement, educational requirement 
in the War College for general and flag officers has not taken 
away some of the time that they would--the respective branch 
potential general and flag officers need to spend in their own 
particular branch learning what they need to know. And I don't 
question the importance of jointness, but I worry about the 
dilution factor in regard to the educational requirements.
    The Chairman. May I interrupt it then? And I will take it 
out of your time. We did consider that. And all the testimony 
that we had and the evidence that we had, that it did not 
detract. I was insistent going into this issue, Dr. Gingrey, 
that the officer be the best and most competent Army, Air 
Force, Navy as possible before they even touched the jointness 
arena, because people learn from each other in the schools. And 
I hope that has been fulfilled. But that was considered at that 
time those many years ago. And I will take that out of your 
time. But that is my clear recollection.
    Dr. Gingrey. Mr. Chairman, thank you for that, and thank 
you for not taking that out of my time. And it may be that we 
need to go back and look at it and relook at it. And as the 
chairman says, it has been a while since we have looked at it. 
So that would be one question. And other thing I think, Dr. 
Hamre, in your written testimony, you maybe described JROC as 
like a corporation of outside members of the board of 
directors, where they tend to scratch each other's back. And I 
think that that is a problem, would be a problem. And it would 
be important for us to know, well, how can they function 
better? And what changes specifically, if you are prepared to 
make that recommendation to us here today, or I would also be 
interested in Dr. Krepinevich's opinion on the same subject.
    Dr. Hamre. You want to talk about the education thing?
    Dr. Krepinevich. Sure. I think that is a fundamental 
question in terms of education. It really speaks to what kind 
of an overall skillset do we need for our senior leaders to 
have? I think if you--let me just give you the Army as an 
example, because I am fairly familiar with the Army. And you 
look at the Army right now looking at spending somewhere 
between $50 and $100 billion, maybe $150 billion to reset the 
force. Well, it is an extremely important strategic question, 
how do you reset the Army? You know, do we just rebuild the old 
force or do we create a new one? And you look at some of the 
things you have to understand to make those kinds of decisions 
as say General Casey or General Cody have to make. The idea of 
how to wage modern counterinsurgency warfare, how to conduct 
stability operations, how to conduct urban operations in an 
increasingly urbanized world, how to conduct protracted 
operations, how to engage in building partner capacity not only 
with allies, but with perhaps tribes, as we found out in al-
Anbar province.
    These are all things that you don't learn at the National 
Training Center. And in fact, I think that there is one danger, 
at least in terms of the Army as a service, is that over the 
years, the National Training Center has become the be all and 
the end all. But what the National Training Center, until 
recently, taught officers is, number one, how to fight 
conventional warfare, and number two, how to be very good 
tacticians. You go to the War College to learn to think about 
strategy, about the broad issues, about the things that you are 
going to need to know to be a senior general. And again, I 
think that is why that part of the education is absolutely 
critical. And what I am concerned about right now is not that 
we are doing too much of that, but that we are doing too 
little.
    Dr. Hamre. Sir, may I just speak to the question of the 
JROC? I was looking very quickly to make sure I didn't use the 
word scratching each other's back, because I didn't want to 
give you or any of the members the impression that I didn't 
think that members of the JROC were trying very hard to do a 
good job. They are. The vice chiefs serve on the JROC, and they 
take very seriously the goal of understanding how we are going 
to fight jointly together with new systems looking into the 
future. But they will do that as one or two hours out of a 
week, and the rest of the week they are spending really on 
service issues, service-specific issues. It isn't their daily 
job to think about joint activities the way it is for a 
combatant commander or for Joint Forces Command.
    So I personally believe that the Joint Requirements 
Oversight Council actually should be populated by people that 
come from the demand side of the equation rather than the 
supply side of the equation. And that I would try to find a way 
to get the combatant commanders to have a stronger voice. Now 
we can't have them here all the time. They got to be out 
fighting wars. So I don't want to waste their time. They need 
stronger J8 functions. That is the planning, budgeting 
functions. They don't tend to have good strong J8s. And there 
needs to be a focal point for them in Washington. Now that 
could either be through the Joint Forces Command or we could 
create something new.
    So again, thank you for letting me clarify. I don't mean to 
imply, and do not believe that the current members of the JROC 
are not really trying hard to do the job of that organization. 
It is that it is not their day to day inclination.
    Dr. Gingrey. Right. Dr. Hamre, I apologize if I 
mischaracterized your--either your oral or written testimony, 
and I appreciate that explanation. But I think that both of you 
have done a great job this morning, and I appreciate your 
testimony. And I yield back, Mr. Chairman. Thank you.
    The Chairman. Thank you. I might add, in addition to my 
comments earlier, being somewhat familiar with those chosen to 
go to the Joint Forces Staff College down in Norfolk, that they 
are a group of heavy hitters and specialists in what they do. 
As a matter of fact, to give you an example, a young Missouri 
student roomed with the four-striped captain whose next 
assignment was to take command of the USS Nimitz. So it gives 
you a reflection that they are choosing the right caliber of 
people to go into the joint billets, which frankly encourages 
me.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you for both for being here. This has been, I think, a very 
important hearing. And I would go along with my colleague, Mr. 
Thornberry, and I say I think we need more of them. So thank 
you very much. I wonder if you could expand a little bit on the 
noncore competencies that you mentioned and the military versus 
civilian input in a post-war conflict. Can you design that 
without the state or other executive departments? Can you 
design that jointness? And I know a lot of very smart people, 
and in fact the chairman as well is very interested in this 
interagency work that we need to do, as well as focusing on the 
Congress. And yet I think that it is difficult to quite define 
who should lead that effort.
    If the military leads that effort, if DOD leads that 
effort, then they will, in fact, impose on it as they have now. 
And unfortunately, as we know, the other departments have 
basically been absent without leave (AWOL) at this. So help me 
out with this. Where should that--the real focus for that 
planning begin? How should it develop? And how does the 
leadership develop out of that as well?
    Dr. Hamre. Ms. Davis, you have just asked the hardest 
question in front of the country, to be honest. And the reason 
this is so hard is that you are dealing with probably the 
largest fault line in the American Constitution. We have a 
separation of powers between the executive branch and the 
legislative branch. There is no question that the Congress has 
a right to oversee the operation of the departments of the 
executive branch. That is well established. But when it comes 
to the interagency process, that is seen as being a 
Presidential prerogative, how he organizes the National 
Security Council and the coordination process. And if I were 
working--when I was at DOD I would have fought very vigorously 
to keep the President alone responsible for that.
    So we have a strong constitutional problem here. We don't 
have well functioning interagency processes. But you can't put 
the burden on just the Defense Department to solve it. You 
know, so this is a--I really don't have a good answer for you 
because it is such a crucial question. I don't think it is 
possible to do a Goldwater-Nichols for the interagency process, 
because you are, in essence, saying the Congress is going to 
tell the President how he is going to organize the interagency 
working of the executive branch. And I would have fought that 
when I was in the executive branch. And I understand that.
    So how do we get around it? I think we should find--we need 
to strengthen the capabilities of the departments. We need to 
hold them accountable. I don't know if this committee has ever 
asked a State Department guy to come up here and talk about 
postconflict reconstruction. I think you should. I think you 
should help. I mean Congress--I also must say Congress 
reinforces the lack of cooperation in the executive branch, 
because we all report to committees of standing jurisdiction.
    Mrs. Davis of California. We all have our own jurisdiction.
    Dr. Hamre. We are all part of this. This merits deep, deep 
thinking. But I don't think it is susceptible to a Goldwater-
Nichols solution the way we had before. But Andy may have more 
insights.
    Dr. Krepinevich. Just a couple of observations. First of 
all, I very much agree with what Dr. Hamre said. Second, I 
noticed in the legislation, unless I missed it, there was 
really no definition of what a core competency is. The term 
comes originally from the business literature. And there has 
been some work in the Defense Department, particularly in the 
Office of Net Assessment, to try and apply that to defense 
circumstances. There are two--well, several things that 
characterize core competencies. One is it is a complex 
combination of things. And so it would be people, equipment, 
doctrine, industrial base, and experience that enables the U.S. 
military to do something of strategic significance exceedingly 
well. So it is complex, it is hard to create, it is hard to 
replicate. It allows you to do something that has strategic 
impact and allows you to do it at a world class level. And so 
again, if you are going to go in that direction with 
legislation, I think definitions become important. A couple of 
examples I would give you, global command, control, 
communications, computers, intelligence, surveillance and 
reconnaissance (C4ISR) would be a core competence of the 
American military. Long-range precision strike, 24-hour all-
weather operations. These are things that are really complex 
combinations. If you are looking at where we might expand, I 
would say operations in complex terrain, meaning urban terrain, 
cultural terrain and littoral terrain, which is usually heavily 
trafficked, time-based competition. The world is--the military 
competition is becoming increasingly time sensitive. And we are 
getting worse and worse and worse at acting promptly and 
quickly. With respect to jointness in the interagency, in a 
sense it goes beyond the interagency, really looking at the 
interface between the Federal Government, State and local, but 
also the civil sector.
    So for example, if you are looking at cyberdefense, again I 
think it is very blurry who is responsible for what. And it may 
be that the private sector does a better job than the 
government sector would. You know, World War II we worried 
about bombing factories, and so we had air defense systems to 
protect them from air attack. It may be again that Citicorp is 
best at protecting Citicorp. I don't know, but I think it is 
important for us to begin to figure those sorts of things out. 
Satellites, space defense, a lot of what is up there that we 
use is in the commercial sector.
    But certainly, irregular warfare is an area where the 
interagency issue has come up again and again. And I think at 
this point in time the military does not want that mission. But 
as you pointed out, the weight of historical experience, 
whether it was Vietnam in the 60's or what we confront now in 
Afghanistan and Iraq indicates it is the military that ends up 
doing it. And I think the burden of proof is on the other 
elements of the interagency to explain how they somehow are 
going to remedy that.
    Mrs. Davis of California. Thank you very much. I know my 
time is up.
    The Chairman. Thank you. I will go to Mr. Jones next. But 
let me tell the committee we have four votes, one 15-minute 
vote that has already started, and three five-minute votes. We 
will return. And gentlemen, we appreciate your waiting us out 
for that. Mr. Jones?
    Mr. Jones. Mr. Chairman, thank you. And to the panelists, 
thank you very much. And Dr. Hamre, I will ask this question of 
both, but you mentioned in your testimony, and no wonder 
thinking of the committee, about under secretary for finances. 
I have been here 14 years, and one of my biggest frustrations 
is the fact--and I am just talking about budgets now, I am not 
talking about investments in new equipment, but budgets--is 
that it seems that each and every year, even before Iraq and 
Afghanistan, that there is very serious concern about the 
bureaucracy, and how--I don't want to say fraud, but waste in 
the Department of Defense as it relates to their budgets. And I 
took it upon myself four or five years ago, and I cannot 
remember the gentleman's name, he was number two at GAO. I had 
seen him on some talk show, so I asked him to come in and brief 
me. And he said Congressman, you know about the only way that 
you will ever get a handle on the budgets at the Department of 
Defense is if an individual could have an appointment for six 
years, and either the Congress could remove the person or the 
president.
    I don't know how that should be structured, no idea. But he 
said that you have got to have a person that has the knowledge 
and has the control that you can get these budgets to where 
they are more efficient and less wasteful. Do you think that 
makes any sense at all, that this person is like David Walker 
now is the Comptroller General of the GAO. But it seems like 
these budgets at the Department of Defense, and I am not 
criticizing anybody, but you have got too many hands in the 
pie. And it seems like that they are autonomous in one respect. 
And the Secretary of Defense does not have the time. I know he 
has, you know, assistant secretaries. But I am thinking if we 
are going to ever really get it straight. Does that make any 
sense? And it is not my idea.
    Dr. Hamre. Sir, it probably was Gene Dodaro, who is a 
friend of mine, who was the deputy to Dave Walker. I served for 
four years as the Comptroller, Chief Financial Officer for the 
Defense Department. Initially went over for Les Aspin, and then 
with Bill Perry. And so I know a lot of about how we put 
budgets together and how we manage the financial resources of 
the Department. This is the primary tool by which the Secretary 
brings policy control over this very large, complex 
organization.
    I used to say to people, I said if you want to breathe 
oxygen, I can give you oxygen, but you are going to breathe the 
Secretary's oxygen. And you are going to follow through, 
because the Secretary was going to be accountable to you. And 
so the system over there is designed really for policy 
accountability more than anything. And accountability to the 
Congress. All the systems, the accounting systems, financial 
management systems are really designed to make sure we can 
answer the questions you are going to ask when we come up and 
ask for more money. Now so I say that to the following. We have 
set up a system where we control the Department, the primary 
mechanism of political control, policy control is budgetary. 
And if you are going to create a different system for 
budgeting, then you have got a much larger question we have to 
wrestle with, which is how is the Secretary going to manage the 
Department? It is, in essence, his primary tool. I am very open 
to exploring ideas with you, sir. I do think that you--again, 
the Secretary is accountable for everything that happens in 
that department. Everything down to a buck private. And he has 
to have the authority to be able to control that.
    And so, giving him a comptroller that he controls, as 
opposed to one that has kind of an autonomous role, is I think 
is important. I would not support an idea of having kind of an 
independent financial manager that is separate from the 
Secretary.
    Mr. Jones. If I could, very briefly to the doctor, I don't 
think--the issue is when you look at the fact that we have had 
testimony after testimony--I know we are in a war, so let me 
make that clear--but we have had--I mean, I brought to the 
committee last year an ice maker that you could go to Lowe's 
and buy for $4,000, it is like would go into a plane that they 
were paying $25,000 and $30,000 for. I mean it was documented. 
And to me if the checks and balances, if you don't have--I know 
my time is up, Mr. Chairman, and I will be real quick--but if 
you don't have--the Secretary of Defense, in my opinion, has so 
much in front of him that he has got to have some help to make 
this system more efficient. Because we are in a competition 
with the Chinese and other nations. And if we cannot account to 
the taxpayer how that money is being spent----
    Dr. Hamre. Yes.
    Mr. Jones [continuing]. Then I don't know if we will be 
doing the same thing, having these same hearings five or six 
years from now.
    Dr. Hamre. Yes.
    The Chairman. I thank the gentleman. And to the witnesses 
we thank you, and we shall return. And if you don't mind, when 
we return, to continue our questions. Thank you. We will be in 
recess.
    The Chairman. The committee will resume. Thank you for 
waiting.
    Mr. Sestak.
    Mr. Sestak. Thank you, sir. It is a pleasure.
    I was struck. There were a couple of things that were 
mentioned in your testimony.
    You both used the word ``capability'' and you know we have 
gone to a capability-based or tried to go to capability-based 
analysis over there. Again, lead by Andy Marshall and others. 
And you both focused upon the issue of, I think, jointness. And 
to me, jointness talks about commonality and understanding. And 
you also mentioned the common challenges of terror and anti-
denial, anti-access.
    My question has to do with some perceptions of the Defense 
Department.
    They are human beings over there. They respond to 
incentives. To some degree, you have talked about changing 
incentives in the process, the JROC is a good example and in 
warfare capability in the Goldwater-Nichols Act that the 
chairman read from over here, and we changed incentives and 
there is really only two incentives over there, promotion or 
owning the money. So you changed the incentive for promotion 
for joint warfare by saying you are not going to get promoted, 
not unless you go join.
    My question comes to some degree, Doctor, to you, Dr. Hamre 
first. You have talked about the roles and missions and having 
watched a number of efforts over the years kind of come up with 
the same thin rule at the outcome.
    Do we need to really not look so much at roles and missions 
and try to delineate who has what but focus on the proper 
incentive that hasn't been touched yet, that is the money, and 
try to change, not just the process by putting more civilians 
in that JROC because they haven't done badly. They have got 
them OSD in the lower level and they are even going to put 
somebody in the JROC in the vice.
    But in the second change, the second incentive we have, 
which is the money, and move that into the joint world for the 
one that is common to everyone. And it is truly--and Dr. 
Krepinevich kind of talked about it, is truly at the center of 
the real transformation. It is not kind of delineating the 
roles anymore. It is what is common, and if it is common, how 
do you incentivize everybody to come and meet the same 
requirement. Why not give the money for C4ISR to the joint 
staff and change the incentive?
    JROC is great. I have watched them come up with these 
common denominators time and again and whichever one said this 
is a requirement didn't matter. Did you have the money to make 
them come up with the requirement?
    What is wrong with that is the real essence of the second--
Goldwater two, so to speak, where we haven't touched that 
incentive in what truly is one of the tragedies of Iraq, the 
transformation that never occurred.
    Sir.
    Dr. Hamre. First, Admiral, thank you for continuing to 
serve your country. I am really grateful that you are here.
    When we first started Goldwater, this beyond Goldwater-
Nichols, we started with a threshold question. Do we want to 
change the basic formula where we give the dollars to the 
military departments and they buy things. Do we want to take 
that away. Other countries have done that. They have removed 
the funding from the military services and centralized, et 
cetera. We thought that that would not be a good move except in 
one important area and that is C4ISR.
    If you really want seamless interoperability, you cannot do 
that by trying to build it from the outside and work your way 
in. You have to start by starting with the center activity and 
work your way out.
    And so if you leave the command and control funding with 
the services, their first interest is to make the eaches in the 
field talk to each other and then they will work their way 
toward the center, and that is why we have profound 
interoperability problems to this day.
    I would do exactly what you said. I would take the funding 
for command and control, and I would centrally administer it 
for the department on an enterprise-wide basis and I would 
certainly use the J-6, which is the J-Code function. I would 
turn that into the--into the acquisition executive for command 
and control, enterprise-wide command and control for the 
Department.
    Now, Secretary Rumsfeld has experimented, but we have got 
two different experiments going on: We have got an experiment 
where Strategic Command (STRATCOM) is doing enterprise and 
Joint Forces Command (JFCOM) is doing enterprise-wide. And 
instead of having horizontal, or I mean vertical stovepipes, we 
are now getting horizontal stovepipes. This is not the right 
answer. We need to get a single idea. I like the J-6.
    Now the J-6 would probably have to count on this to be its 
technical arm underneath it. We would have to augment because 
the J-6 doesn't have the organic capacity to do it in just the 
J-6, but I think it is a good idea, and I think it ought to be 
explored as an issue.
    The Chairman. Thank you. Dr. Snyder.
    Dr. Snyder. Thank you. I apologize for having had to leave. 
I presided over the House for the last two and a half hours, 
but I intend to read the transcript so I am going to ask you a 
couple of questions, and if you have covered them, tell me. I 
assume that somebody asked about the issues that have been 
floating around out there about some people's belief that we 
need to do a real major study in terms of some kind of 
jointness study with regard to other agencies other than the 
military.
    Did that topic come up during this hearing?
    Dr. Hamre. Partly, but it is worth talking about again.
    Dr. Snyder. Because we talk about the Administration, 
everyone acknowledges that mistakes have been made over the 
last several years in Iraq that we are not getting to our end 
results as quickly as we want to.
    But I think the military has been frustrated because I 
think they feel like if they had, I don't know, a level of 
commitment, level of effort, the kind of personnel they needed 
brought forward early on from other agencies in the Pentagon 
and the military, that we would be much further down.
    And so what are your comments about where we need to go 
with regard to, for want of a better word, we call it some kind 
of a jointness study with regard to other agencies?
    Dr. Hamre. I spoke to an earlier question that spoke to 
this, and let me let Andy begin with this, and I will offer one 
comment.
    Dr. Krepinevich. Part of the discussion as Dr. Hamre said 
earlier did get to this issue. I guess to summarize a response, 
there are a number of existing and emerging challenges we 
confront that can't be confined to the Defense Department in 
terms of the skillset needed to respond.
    The one that clearly hits us is insurgency. Modern 
insurgency warfare requires a combination of diplomacy, 
intelligence, reconstruction efforts as well as security 
efforts. And it is beyond the purview of the Defense 
Department, beyond the assigned skillset.
    There are other areas. We talked about Homeland Security 
against non-traditional WMD attack, cyber warfare that may get 
us beyond the interagency and into the private sector and their 
engagement on the issue. And what strikes me if you go back to 
the 1994 commission on roles and missions headed by John White, 
the predecessor to Dr. Hamre as Deputy Defense Secretary, the 
Commission calls for a Quadrennial Security Review, and I 
thought that was one of the really insightful recommendations 
of that commission. That in fact the threat, the kinds of 
challenges and threats we were confronting couldn't be neatly 
compartmentalized necessarily within the Defense Department 
within all issues.
    And if you look at--I mean, going further back in time, I 
would argue that we are in a position right now somewhat 
comparable to the late 1940's, early 1950's where the Soviet 
Union was a new threat, communism was an ideology, was in our 
face. You had new technologies, ballistic weapons, nuclear 
weapons, satellites, and so on. And now it is radical Islamism, 
it is a proliferated world, it is the very unusual things China 
is doing. These are problems that don't seem likely to go away 
any time soon just as the Soviets didn't seem likely to go away 
any time soon.
    And what the Truman Administration did through National 
Security Council Report 68 (NSC-68) and the Eisenhower 
Administration did through Solarium is say we need a grand 
strategy review. And in the case of Eisenhower in particular, 
he became directly involved in the effort and the idea was we 
can't, you know, a lot of this is focused on defense but we 
can't, we can't limit it to defense. There has to be a 
propaganda element to this. There has to be a diplomacy effort. 
There has to be an assurance that we have essentially provided 
for our commission foundation which is a source of enduring 
strength for this country.
    It was really, you know, strategic planning, the way you 
would like to see it done by two very different administrations 
in some ways.
    And I think we are lacking that kind of an effort right 
now. I think it should be one of the top priorities for whoever 
the next administration turns out to be.
    And finally, I would say as a practical matter, the Defense 
Department is--sort of feels it is in a catch 22. If it deploys 
forces for these kinds of contingencies, especially a regular 
warfare, they know it can't succeed unless the interagency 
shows up. But Vietnam has showed us, Iraq has showed us, 
Afghanistan has shown us that if the interagency doesn't show 
up in sufficient numbers and sufficiently quickly to enable us 
to succeed the way we need to, so does the Department begin to 
step on other toes in trying to do it itself, or does it 
continue to its own knitting.
    And I think that is a gray area of inquiry and oversight 
that this committee might investigate.
    Dr. Hamre. I will be very brief.
    I know that the interagency process can be fixed the way 
Goldwater-Nichols fixed the Defense Department. And the reason 
I say that is the interagency process is about how the 
President chooses to organize the executive branch and his 
operations, and any President is going to resist a 
Congressional solution as to how he is going to organize it. 
There is no question that Congress has a role over the 
departments, but how the interagency works is really an 
ambiguous part of our government, and it is in--any President 
will fight you to say that you should organize that.
    I do think there are important things that contribute to 
our poor job of coordination, and one of them is there is very 
little excess capacity for contingencies in non-DOD agencies. 
There are no extra civil servants in management positions 
sitting around in peacetime. We buy ten percent more officers 
in the military than jobs. That way we can send them to 
schools, joint duty assignments, on a training exercise with 
State Department.
    But the other agencies of the executive branch do not do 
that. They budget about one half of one percent, which is the 
long-term disability rate. So they don't have people they can 
send to Iraq. They have to take them out of a job where they 
need them in that job as well.
    So one of the things we could do would be to start buying 
more management capability by buying more--a little more depth 
in some of these critical agencies. I think that is something 
we can do.
    I also think it would be possible to think of some 
mechanical things that would help.
    Every administration struggles its first couple of years 
before it gets its sea legs on how to work together. And I 
think creating like a field activity that works for the 
executive secretariat that could become the core of a crisis 
action team which when a problem comes up, you would have the 
ready made, at least the connective tissue. You still need 
decision makers. You still need to follow through with your 
decisions. That has been a problem. But at least you would have 
the mechanics in place.
    I think there are some things that can be done, but 
inherently we have a constitutional problem saying how you are 
going to organize the President's operation. I think that is 
going to be a difficult one to solve.
    The Chairman. Grand strategy review. I am intrigued by that 
because you are so correct.
    Recently, the chief of Naval operations, Mike Mullen, gave 
a speech stating that we were in need of a strategic plan for 
the Navy, sea power. Strategic review, for lack of a better 
phrase. And he set forth certain criteria in that speech. I am 
not sure if you are familiar with it or not. But it was 
reflected in a recent news story.
    Let me ask each of you very briefly.
    What would you include in your grand strategy review, and 
since you mentioned the phrase first, Dr. Krepinevich, we will 
let you answer the question first.
    Dr. Krepinevich. I think it would have to focus on the 
three principal challenges that we see to our security, which I 
think radical Islamism being one, but I think in the larger 
context we are looking at an increasingly disordered world for 
a number of reasons. And so essentially how to deal with that.
    The second, the consequences of a more proliferated world, 
particularly with respect to nuclear weapons. And third, how to 
deal with the rise of China, not that China is the second 
coming of the Soviet Union. But we have seen, as history shows 
us, that rising powers in the past, if the situation isn't 
tended to, can sometimes produce very unwelcome outcomes.
    And I think given those three challenges, then you need to 
look at the geopolitical situation, the military situation, the 
economic situation as well as I would say the social situation. 
And here I am just cribbing directly off of Truman and 
Eisenhower.
    They--Eisenhower's guidance, he had three principal 
elements of guidance in terms of looking at the challenges he 
saw. One was he would support no grand strategy that undermined 
the economic foundation of the country, and certainly there is 
a lot we need to do to get our economic foundation in better 
shape.
    And that also gets to the issue of energy dependence and 
these kind of issues.
    Second, he would support no strategy that would not be 
supported by our critical allies. I think we are in a situation 
today where we are not quite sure, given the very different 
kind of problems who we confront, who our critical allies are 
going to be in five or ten years. Particularly since the focus 
of the problem has moved from Europe really to the Middle East, 
south Asia and east Asia.
    And we are probably going to find allies in these tougher 
neighborhoods, I think, more in the future than we will, 
perhaps, in some of the traditional areas.
    And third, he would not support a new strategy that ran a 
high risk of nuclear war. And again here, I think one of the 
critical issues is how do we prevent the use of weapons of mass 
destruction.
    So, again, I think you would have to look very 
comprehensively and from that, begin to distill what you saw 
as, again, the major contingencies, the major scenarios that 
you would have to address, make sure they are representative 
enough so that you cover what you consider to be the full 
waterfront of potential problems. And then ask, you know, bring 
together some very smart people to work on it.
    It was Paul Nitsa and a few others in the Truman 
Administration. Eisenhower formed three groups. Sent them over 
to the National Defense University. They worked seven days a 
week for six weeks. George Kennan headed one of the groups. 
They came back to report to Eisenhower in the White House 
Solarium, hence the phrase Solarium Project, and what is 
astounding to me is George Kennan, who had an enormous ego, 
himself writes later when they all finished, Eisenhower stood 
up and spoke extemporaneously for 45 minutes on grand strategy 
and in the course of that 45 minutes proved himself the 
intellectual superior of everyone in the room.
    I think that is the kind of effort, the level of effort and 
the kind of firepower that we need to bring to bear. And again, 
you really do get into some of these broad issues. The 
Eisenhower review, just very quickly to sum up, you got into 
areas like where to invest in science and technology, the whole 
issue of Homeland Defense, alliance relationships, expanding 
the alliance relationships and so on. It really was profound in 
terms of its scope.
    The Chairman. Was that the last time we got it right?
    Dr. Krepinevich. That was the last time I think we had the 
kind of circumstance that we have today. The Soviet Union was 
our ally until the middle 1940's. All of a sudden, it is an 
enemy. It is a new ideology. It is not fascism. It is 
communism. Much more virulent. Atomic weapons, hydrogen 
weapons, ballistic missiles, we were looking for the first time 
at an existential threat to our homeland, and if you look at 
the situation now, again, the issue of the forces of disorder, 
as was mentioned before, I think, their ability to organize, 
direct efforts, coordinate efforts and their access to ever 
increasing amounts of destructive power whether potentially 
nuclear, radiological or biological weapons, makes them a 
potential large-scale threat to this country.
    The issue of rogue states armed with nuclear weapons 
perhaps trafficking in fissile materials, using these weapons 
and then the issue of China which, again, we don't know what 
their intentions are but their building capabilities, for 
example, to challenge our ability to access and control the 
global commons: Space, cyber space, the sea and the undersea.
    And this is a very different kind of problem set than we 
are comfortable and familiar with. And that is why I say there 
is a comparison between now and that period in the late 1940's 
and early 1950's. So we got it right enough then that we won 
the Cold War. We are in the very unusual period again, and it 
is extremely important that we get it right this time as well.
    The Chairman. Dr. Hamre.
    Dr. Hamre. Sir, I think there are four factors that when 
they are combined, create the peril of our time.
    I think the first is the residue of the Cold War that left 
lots of nuclear, biological, chemical weapons.
    I think we have the rise of transnational terrorist 
organizations that embrace a suicide approach to warfare. We 
have irresponsible nation states that give harbor to these 
transnational actors. And then we have an air of globalization 
where we make it very easy for people to move about.
    And I think it is those four in combination that create the 
peril of the era we are in and I think we need to design a 
grand strategy that deals with those four elements. I don't 
think we have in place that grand strategy.
    At the core obviously is building stronger capabilities in 
government around the world and establishing closer working 
ties with those governments, and we are going to have to build 
from the bottom up a network that is going to help us prevail 
against this threat. It is going to take a long time. But I 
think it deals with those four things.
    And if I could ask one thing of this committee today is 
that you take as a priority trying to get the government 
focused on how do we prevent nuclear terrorism more than 
anything that is the existential threat that we face as a 
country.
    Another 9/11 or where they fly into buildings, that will be 
a bad day, but that will not be an existential day for American 
democracy. But if a nuclear device goes off in a major city in 
the country, that will take American constitutional democracy 
down for some period of time.
    And we can't afford that. And we need a comprehensive 
strategy for dealing with that.
    Dr. Krepinevich. Just one final point. If you look at the 
deliberations of NSC 68 and the Solarium project, what Dr. 
Hamre said was very important. Not only were they concerned 
about the existential threat to the survival and security of 
the United States, but also what they would have to do to 
ensure it. In other words, would we need to develop a strategy 
that is that to began to compromise our civil liberties and our 
way of life that we stopped being who we are. And that has got 
to be a critical part of any grand strategy that is developed.
    The Chairman. Excellent. Thank you.
    Ms. Bordallo, and then we will go to the second round.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and thank 
you for holding this meeting.
    To me it is very important for our new majority to hold 
oversight hearings on the performance of the Department of 
Defense, and I think we are very fortunate this morning and 
this afternoon to have two very informed witnesses to be with 
us.
    To that end, I feel that there is a critical piece lacking 
in these discussions, and that is the role of the Department of 
Defense in homeland defense and in support of civilian 
authorities.
    To any of the witnesses who wish to answer, at present, the 
current statutory mission of the Department of Defense does not 
explicitly include a requirement to provide support to civilian 
authorities in times of domestic emergencies.
    In the post 9/11 world with its increased terrorist 
threats, it seems prudent for us to for acknowledge a more 
integrated civil military capability to protect Americans from 
any future catastrophe. So do you agree that the formal mission 
and requirements of DOD should be extended to include providing 
support to civilian authorities?
    Dr. Hamre. If I might begin, and I will turn to Andy.
    I think this is a crucial issue. And it is a very difficult 
issue because Americans don't feel comfortable having American 
soldiers driving around their streets. They feel comfortable if 
they are policemen or if they are National Guardsmen, but they 
are very uneasy if they are military people. And yet we know 
that a catastrophic event will be so large and so horrible it 
will require the Department of Defense to get involved. And so 
we have this dilemma. We don't feel comfortable working with 
the military working with the civilian response authorities in 
peacetime, and yet we know we are going to need it in wartime.
    So we have this organizational problem. How are we going to 
bridge across that gap?
    I don't think we have it right now. I think that the idea 
that we will--that the Defense Department only deals with war 
and the Department of Homeland Security only deals with 
consequences is not going to work. We know that there is one 
core competence that the Department has which is to carry out 
an order when the President gives it to you. And we know the 
President is going to tell us that we have to get involved to 
help when it happens.
    Now if I could make one recommendation that I think would 
help in the near term.
    The Department of Homeland Security is struggling, to be 
candid. It doesn't have the kind of operational culture yet. It 
will get it at some point, but it does not have it now.
    It doesn't have the kind of operational culture that the 
Defense Department has when it runs command centers.
    I would personally like to see that NORTHCOM, the northern 
command which is located out in Colorado, it is too far away 
from Washington to get integrated with domestic response. I 
would like it like it to have a Washington liaison organization 
that provides command and control interface with the Department 
of Homeland Security. And that it become the core around which 
we have a seamless integration between the Department of 
Homeland Security and the Department of Defense. I think it can 
be done, and I think it can be done with a very straightforward 
organizational implementation.
    I would be delighted to come up and talk with you about it 
some time because I think it would make a great difference.
    Ms. Bordallo. Thank you.
    Dr. Krepinevich. I would agree with what Dr. Hamre said at 
least in terms of what the Defense Department, the attitude 
that I sense, and I think it is not only confined to them, this 
is something that we are not used to doing. We play away games. 
We don't play home games. So this is not--it is kind of 
uncomfortable.
    Second, there is no money in it. You know, nobody is going 
to drop a huge slug of money that we are aware of to help us 
support this mission.
    Third, there is a civil liberties issues, as Dr. Hamre 
says, you know. It has all sorts of concerns about men on 
horseback and the military running things inside the country. 
So there is that issue.
    So for a number of reasons, unfamiliarity, lack of 
resources concerns about negative reaction, the military, in my 
sense, has kept this at arm's length.
    But as you point out and as we discussed, the ability to 
respond very quickly to an attack like this may be critical, 
especially in the event of a biological attack, for example. 
The ability to identify that, to respond very quickly, to 
provide support for those affected but also to quarantine an 
area, all of this is going to have to happen exceedingly fast. 
And what you don't get from, you know, Justice is responsible 
for this and the Coast Guard is responsible for this and the 
military that and NORTHCOM--is speed of response. You just 
don't get it.
    And, again, my suggestion would be to keep posing that 
question and say look, I am not--I don't care about operational 
net assessment organizations or that staff. I want to know how 
you are going to solve this problem. I am giving you a problem. 
It is a problem we are all worried about. It is on our top ten 
list. How are you going to solve it and put the burden on them 
as part of your oversight to say well now, here is a 
contingency. Here is how we would operate and then, of course, 
you have to begin to practice oversight in terms of what makes 
sense and what doesn't. And there are going to be a lot of 
embedded assumptions and a lot of magic will likely happen the 
first time around in terms of things that work seamlessly that 
you know in your gut can't.
    And that is the great virtue of the Congressional oversight 
system. You could just keep pressing and pressing and pressing 
until you get an answer. And you have got the power of the 
purse. As Congressman Sestak says, that certainly gets people's 
attention. And you also have to have the power, at least in 
Congress in certain cases, to approve the appointment of 
certain people to senior positions and you can press them on 
those occasions as well.
    Ms. Bordallo. Well, after hearing the two of you, I think I 
agree that it is important that we continue to pursue this.
    Do you believe, my next question, the National Guard and 
the Reserve Commissions findings and this committee's passage 
of the National Guard Empowerment Act are remedy enough in 
solving DOD's cultural avoidance of embracing the homeland 
defense and civil support? Civil support mission?
    Dr. Krepinevich. I have to confess that I am not familiar--
--
    Dr. Hamre. I know some about it.
    But first of all, we have to start with the premise that 
the National Guard is forward deployed for homeland security. 
They should be the lead for the Department of Defense in 
working on homeland security issues.
    I think a good deal of the legislation or a good deal of 
the recommendations however deal a lot with the internal 
dynamics and politics in terms of the reserve components and 
the active. And that is a sensitive complicated issue--first of 
all, Andy and I would need to study it. I would be happy to 
come up and talk with you about it. But to the basic point you 
are raising, isn't the role of the reserve components to be the 
forward deployed leading element in homeland security
    Ms. Bordallo. The reasons I brought these questions up, Mr. 
Chairman, is the failures of Katrina, and I remember the guard 
responded but the integration with the home department of 
Homeland Security was poor, and I would very much like to meet 
with you and further discuss this if it could be possible.
    The Chairman. I thank the gentlelady.
    Mr. Hunter just mentioned to me that the two of you are so 
good that we hate to let you go.
    With that, Mr. Hunter.
    Mr. Hunter. Thank you Mr. Chairman, and gentlemen, thank 
you for having some endurance here today and, again, for your 
great contribution to our deliberation. It has been great.
    Let me ask you a question, Mr. Hamre.
    You talked about the threat of the nuclear device. And what 
that would tend to lead me to, and I think the logical 
conclusion that most folks would derive, is this: That because 
that amounts to enormous leverage for a rogue nation or even a 
group should they acquire such a device, that a policy of pre-
emption should be very carefully considered. That is, if this 
is the age of leverage where just one or two people or a small 
group of people can hold a nation literally in terror by the 
delivery--hiding of a device in an urban area in a city, and 
then a series of blackmail demands, that the policy whereas we 
have always recoiled in a cultural way from a policy of pre-
emption, that that is something that civilized nations don't 
do. They don't go in and take out things before they occur. And 
probably on the heels of the Iraq operation, there will be even 
more political pressure never to do that.
    But don't you think that that should invite a new 
discussion on the policy of presumption?
    And my other question--I would like you, Mr. Krepinevich, 
to talk about that.
    But the second question is, a big piece of this, and the 
ability of on your enemies to gain leverage over us is 
something that the military can't control and that is 
technology transfer. And what a civilian company can do to this 
country in terms of moving technology that lends itself to 
weapons of mass destruction in many cases or a community of 
companies, for example, like the A.Q. Khan network, is much 
more dangerous than a military operation. And it is something 
that the military is not in a position to avoid because the 
regulations and the system that constructs the flow of killing 
technology from our shores and from the shores of our allies is 
basically a domestic policy.
    It is a policy in which security interests regularly 
collide with commercial interests, the interests and the need 
to make a buck. And typically the security interests lose.
    I mean, that is why we have shipped tons of dual use 
capability to China, and there has been almost no review of the 
end use of that dual use capability. And I think one time I 
checked on the super computers that had moved over ostensibly 
to benign organizations in China, and I think out of something 
like in excess of a hundred shipments, there was precisely one 
determination that the end use was, in fact, had been--as had 
been described on the initial application for transfer.
    So do you think we need to have a new regime of technology 
control, not only for the United States but for our allies?
    Dr. Hamre. Sir, you really should have a dedicated hearing 
just to this subject. I think this is a huge, very important 
subject. And it is so much more complicated today because, you 
know, 50 years ago when we were doing technology control, our 
manufacturing processes were limited, so basically our 
engineers and scientists had to be close to where we made 
things. So you found it concentrated and it was easier to put 
controls around it.
    We are now living in an era where things are done virtually 
around the world.
    So designing a regime of technology control that really 
does stop bad things from happening and doesn't stop good 
commerce from happening is extraordinarily more difficult 
today. And I really would like to talk with you about it, and I 
think it would be useful for you to think about doing that as a 
hearing.
    But it is very hard.
    And especially in an era where 50 years ago, 85 to 90 
percent of all of the advanced technology was in the United 
States, and that is just not the case anymore. So it is a much 
more complicated problem today.
    So I would love to talk with you about that.
    Sir, I will be very brief on the issue you said about pre-
emption.
    If we really did know who and where a group got an illicit 
nuclear device was, of course we would do that. It is a risky 
issue now because of the question of salvage fusing. In the 
attack will they simply detonate on location, and that is a 
real complication that we have to think our way through very 
clearly.
    It has to be part of the strategy, but it can't be the only 
part of the strategy. We need to do a lot more to reduce the 
amount of nuclear material and its loose stewardship around the 
world.
    Russia continues to have over 10,000 warheads. For what 
purpose? You know, they could easily--one could easily fall in 
the wrong hands. We have got to get the get nuclear material in 
control, we have got to get better forensics so that we can get 
accountability if something goes off, whose was it. So that you 
can hold them accountable.
    The best way to stop diversion of nuclear material is for a 
country to know if it is diverted from their country they are 
going to be held accountable. There are so many things we need 
to do. And I include the pre-emption where we have the 
capacity.
    But our current capacity to detect is very limited. We 
can't go into it in a public setting. It is very limited.
    We need better detection capability and tools, and then we 
need to integrate that into a broad strategy.
    I would love to talk with you about it both issues.
    Dr. Krepinevich. On pre-emption and then on technology 
transfer.
    Another thing that is somewhat similar to the 1950's, and 
right now is in the 1950's, there was an enormous amount of 
intellectual effort devoted to understanding what I would call 
the first nuclear regime, the United States and the Soviet 
Union having large numbers of nuclear weapons. We are in an 
entirely different regime now and moving to in every way, every 
day it seems, a multi-polar nuclear world, a broad range of 
nuclear powers, potential, as Dr. Hamre says, for some non-
state entities.
    In the case of non-state entities we might be able to make 
the argument that we are already at war and so pre-emption is 
something that we can do and not define it as such.
    But I share your concerns.
    For example, North Korea sells everything that they can lay 
their hands on. Why wouldn't they at some point begin to sell 
fissile material, and what would they do if we found that out?
    In terms of the grand strategy element, one that we have 
been encouraged to think about is not only trying to prevent 
this, but how does the world change after an event like this?
    Things that the American people would never sanction prior 
to the kind of nuclear event that Dr. Hamre talks about would, 
I am afraid, become all too plausible once it did.
    The strategic degrees of freedom if you will would expand 
dramatically, and we saw that after 9/11. We saw it after 12/7, 
which was even bigger event in history, December 7th.
    But in World War II, once we were hit at Pearl Harbor, we 
began unrestricted submarine warfare, something we went to war 
over against Germany in World War I. And we had condemned the 
German Luftwasa for bombing Warsaw and Rotterdam, and we did it 
ten times over against Japan and Germany.
    You have to think about the consequences in that context, 
too. There may be a much broader latitude on the American 
people for pre-emption but the strategic question becomes who 
do I go after? How do I pre-empt? What capabilities do I have 
now to execute this new strategic degree of freedom?
    In terms of technology transfer. One of the big differences 
from this era in the Cold War era is the fact that so much of 
the advancing technologies is occurring out in the open in the 
commercial sector. Not in weapons labs. When you think about 
nuclear weapons and ballistic missiles, there were weapons 
laboratories and they really did have the keys on this 
technology and they had it locked up pretty well, and we could 
have regimes like COCOM.
    The other thing is the ubiquitousness of information. The 
Internet, that we developed, spreads information around at a 
fantastic rate in ways you can't put your fingers in the dike. 
Contrast that with what happened after Einstein sent the letter 
to Roosevelt warning about the dangers of what is going on in 
physics development. All of a sudden, discussion in the physics 
literature just goes away about these kind of issues.
    It would seem to me inconceivable that you could block that 
kind of information today about biotechnology, which gets me 
back to my earlier point which is if you can't compete by 
restricting technology, then you have to compete based on the 
ability to exploit it more rapidly than your enemies.
    This gets back to time base competition. So it is not just 
competition just in terms of reacting to particular problems, 
but it is the ability to translate very quickly technology that 
is broadly available into military capabilities that can help 
us defend our security. More quickly than our enemies can.
    Dr. Hamre. Mr. Hunter, would you let me offer one further--
--
    Mr. Hunter. I sure will.
    The Chairman. Go ahead.
    Mr. Hunter. Before you do that. I want to note one. You 
mentioned the letter that Einstein sent Roosevelt.
    Edward Teller told me one time about a story about when 
he--was it Enrico Fermi? Was Fermi a great physicist?
    They went to try to find Einstein to sit down to talk about 
the letter they were going were going to send to Roosevelt, and 
I think he lived in Long Island and Teller said that he had to 
drive because Fermi couldn't drive or else he couldn't drive so 
Fermi drove.
    Dr. Krepinevich. What actually happened, Teller was a 
Hungarian refugee, so was this fellow Leo Szilard, who was a 
physicist, and it was the summer of 1939 and Einstein was 
vacationing on the south shore of Long Island, and Zolard 
didn't drive. So they got in the car and drove out there and 
they sat down with Einstein and they convinced him this he 
needed to write a letter to President Roosevelt. Only his 
stature would get the attention of the President. That is how 
the Manhattan Project got started.
    Mr. Hunter. That is how Teller told me how they found him. 
They said they saw a little blond girl jumping rope, and Teller 
said they pulled up and he rolled the window down, and he said 
little girl, and she stopped jumping rope, and he said, where 
is Professor Einstein with that very heavy Hungarian accent to 
the end, and she said I have no idea and then he said, where is 
the old man with all of the white fluffy hair. And the little 
girl said, right over there. And they went up to the--they went 
up to the door and knocked and said Einstein came out in his 
bathrobe and invited him in and went over the letter.
    So sometimes it pays to know little girls that are jumping 
rope.
    The Chairman. It is also nice to see my California friend 
becoming such a historian.
    Mr. Hunter. I am following your lead here.
    The Chairman. Thank you.
    Ms. Davis, please.
    Mr. Hunter. Did you want to answer something else?
    Dr. Hamre. Just to drive a point about how crucial this 
issue of nuclear terrorism is and how it relates to responding 
as a Nation.
    When I was at DOD, we did an exercise, we simulated a 
terrorist incident destroying a major urban city in the United 
States. And the issues you have to confront there are just mind 
numbing. How do you dispose of 16,000 radioactive corpses? 
Within the first hour there is a lethal plume of radiation that 
has been laid over a population. You have got to get those 
people out. Where did it go? You can get a theoretical 
calculation on where it went, but how do you know for sure 
where it went, and how do you tell people they are in that 
area?
    You have got another plume where it is not lethal and 
people need to leave and how do you tell those people where to 
go? Who protects their homes after you tell them to leave? Do 
they take their pets with them? Or what are you going to do?
    How are you going to feed 150,000 people who are displaced 
for 3 months from their homes while you are waiting for the 
radiation to die down? What do you do with the 500,000 cattle 
that have walked down in the water shed and died in the water 
shed because they have been exposed to radiation poisoning?
    How are you going to keep a father from not going down to 
find his kid in a day care center because it is in that plume 
where there is lethal radiation?
    What are you going to do? These are frightening ideas, and 
all of that is very real. There is only one way we can avoid 
that horror, and that is to prevent that. We have to find a way 
to make sure that we never have a nuclear terrorist incident in 
this country.
    The Chairman. Dr. Snyder has a question.
    Dr. Snyder. Dr. Hamre, in your opening statement you said 
that defense agencies don't have good oversight. I think you 
were using a broader definition of oversight. I assume what you 
meant was the management within the Pentagon. Did you also mean 
congressional oversight or were you primarily talking about 
Pentagon oversight?
    Dr. Hamre. Sir, I think, in general, congressional 
oversight depends on good management oversight in the 
Department; and if you don't have good management oversight in 
the Department, you probably are not going to have good 
oversight from Congress because you don't have as much that you 
can work from.
    Right now, every defense agency reports to the Secretary of 
Defense through an Assistant Secretary; and those guys are 
staff guys. I mean, I was one of those guys. I had finance and 
accounting service reported to the Secretary through me. I was 
the comptroller at the time. I wasn't the guy that should have 
been overseeing the business management in that sense. I took 
an interest in it.
    But most of the guys that really have oversight of the 
defense agencies, it is a small, irritating part of their 
duties. They would rather be doing policy. They would rather be 
doing policy oversight and guidance than they would overseeing 
how you run a commissary or how you run a depot or how you run 
a contract administration office.
    So I believe that we need to have real management 
overseeing those things so that you can hold them accountable, 
just like we hold the Secretary of the Army accountable for 
what goes on in the Army. That is why I believe an Under 
Secretary for Management that has line responsibilities would 
be good.
    Dr. Snyder. I wanted to ask you a very specific question, 
and then I will be done.
    You all have both taken a very broad picture of kind of the 
upper level management kind of issues that we are talking about 
here, and where does the issue of foreign language skills for 
our guys and gals on the ground right now that are going door 
to door in Baghdad--we are now over four years into this war, 
and I think our Arabic language training is--I mean, the number 
of people that we have that speak Arabic is still infinitesimal 
from what I think it ought to be.
    Where does that type of skill--you say the core 
competencies are very good. I would argue if you still have, 
after this length of time, pretty poor ability to communicate 
with the level of language that we ought to have this far into 
the war, I would argue that our core competencies are not as 
good as they ought to be. I mean, where does that fit in 
y'all's analysis of where we are at?
    Dr. Krepinevich. As I mentioned, I think, earlier, I think 
a core competency that the U.S. military might want to consider 
developing is the ability to operate on complex cultural 
terrain. And of course this war has highlighted the fact that 
in many ways, particularly in this part of the world, we are 
deficient in terms of not only in terms of the language but how 
well do we understand cultural mores, taboos, this sort of 
things.
    Dr. Snyder. That shouldn't be a new lesson. That is a 
lesson that we should have learned----
    Dr. Krepinevich. We are learning it, and there are changes. 
I sat on a board last year reviewing the U.S. Marine Corps's 
professional military education, and there is a much stronger 
emphasis that we recommended not only on language skills but 
also in terms of understanding culture. You can pick up 500 
words of the language, but you really need to understand the 
culture as well. As least that was the result of our efforts. 
There were about eight of us.
    But, also, you need to understand--you need to understand 
the profile of who the leaders are in this particular part of 
the world. You may need to know in parts of the world where 
they have tribal and clan structures, what are the 
relationships among them? Because those may be your allies in 
that part of the world in that conflict, and they have their 
long-standing animosities and relationships and so on. And you 
have to understand how being the ally of one is influencing 
your relation with others.
    So there is that issue, as well as identifying leaders. You 
would like to be able to find a charismatic leader. In the 
Philippines, for example, we came upon----
    Dr. Snyder. Excuse me, you moved that way up the food 
chain. I am talking about the guy on the ground in terms of 
foreign language skills.
    It just seems like the kind of urban warfare and the things 
that we need to be doing, I don't expect a Private First Class 
(PFC) in the Marine Corps to be identifying a foreign leader, 
but it is a reasonable expectation of the American people that 
they should be trained--I would think that we would have a 
greater number of people with the kind of Arabic language 
skills that they could keep themselves from getting into hot 
spots that they might be able to avoid if they could just 
communicate.
    Dr. Krepinevich. The short answer is that particularly the 
Army and the Marine Corps are working on it and making 
improvements, but they have a long way to go.
    Dr. Hamre. Mr. Snyder, there is another dimension to 
reinforce what you are saying. Because we did not have language 
skills in depth, we tended to bring in and trust anybody who 
spoke English; and that is one of the reasons why we have got 
spies throughout the operation.
    The Chairman. Thank you.
    I did an article quite some time ago on the frontier wars 
and asymmetrical warfare, and what you mentioned about 
tribalism can be traced back to our earlier days when there was 
tribalism in the frontiers and trying to have one or two tribes 
on your side as opposed to the Shawnees or whoever else was out 
there on the other side. As well as studying that era, it was 
asymmetric warfare at its height with a different set of 
weapons systems called tomahawks, bows, arrows, knives. But it 
is the same thing.
    I would hope our war colleges would take to heart that type 
of study. Whether they read my article or not does not make any 
difference, but I think you learn an awful lot from reading of 
yesteryear.
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman; and 
thank you all for being here again for a second round and 
hopefully a quick round on my part.
    But I wanted to just go back to the issue of leadership and 
developing that. You mentioned, as we all know, there is just 
no substitute for experience and for the length of time that an 
individual has been exposed to any particular problem. What 
else can you tell us about how we begin to try and train people 
in that kind of cross-jurisdictional way, taking what is good 
from military training and develop that more in the civic 
sector? Do you have any thoughts about that that we might glean 
that perhaps has not been said?
    And the other question really just goes to the heart of 
some of the issues that you are talking about in terms of the 
role that the armed service department plays vis-a-vis the 
intelligence, either committee, community, et cetera.
    How do you feel in our role as oversight that we can play a 
more--I am not sure it is a central role because we are not 
trying to overstep one's jurisdiction. How do you think the 
Armed Services Committee can be better apprised as we deal with 
these issues that are so critically, critically important?
    And, finally, is there anything you haven't said today that 
you would like to say?
    Dr. Krepinevich. Oh, goodness, I will try and be brief.
    A few additional things with respect to leadership. One is, 
in periods where you do have this large-scale change and you do 
identify a critical leader, senior person, exceptions are often 
made to keep that person in that position for an extended 
period of time because it does take a while to overcome a lot 
of the friction that Dr. Hamre talked about.
    More specifically, and this is sort of in the role of 
posing questions, take the Army, for example, right now. The 
Army is going to reset itself and modify itself based on a 
number of factors. The Army has a critical decision to make: Is 
it going to reset itself and orient itself on major 
conventional warfare or reset itself with an emphasis on 
irregular warfare?
    Depending on the answer to that question, you are going to 
need a different set of leaders. Different people will excel in 
one particular kind of warfare that won't in the other. You are 
going to need different training, different education, 
different career progression.
    We are engaged in some work on that right now. I would be 
happy to come and brief you on it. But it does really lead to a 
different career progression path, different kinds of 
education, and what is most interesting from an analytic point 
of view, it really changes the cultural hierarchy within the 
Army in a way that has not been changed for nearly a century.
    And this is profound. This is as important in resetting the 
Army as the anywhere between $60 and $160 billion it is going 
to cost to replace the equipment.
    With respect to intelligence, again, I think from my point 
of view that is a very perceptive comment, particularly when 
you are looking at irregular warfare which is confronting us in 
the immediate sense. It is very much an intelligence war. If we 
know who the enemy is and where the enemy is, the war is over.
    The Army that I grew up in, it was always, ``Do we have 
enough tanks to stop the Soviets? Do we have enough planes and 
ships and artillery and submarines?'' That is not the problem 
here. The problem is identifying who these people are and where 
they are.
    So the intelligence dimension of this kind of competition 
is extraordinarily high in a relative sense to what we are used 
to; and it is part of the oversight responsibility of this 
committee to understand what the military is doing to win that 
intelligence war that can, as much as any weapons system or 
program, to achieve success.
    The Chairman. May I interrupt right there, Mrs. Davis?
    Are you saying that we don't give enough personnel or 
assets or attention to the military intelligence?
    Dr. Krepinevich. I am saying, Mr. Chairman--I don't know 
the answer to that question. My sense, though, given our own 
admission, our own admission being the Department's admission 
of how poorly we understand the cultural terrain we are 
operating on, I think in the areas of human intelligence 
(HUMINT) in particular we are almost certainly deficient; and, 
of course, it is an area that is absolutely essential in 
irregular warfare. It is dominated by human intelligence. 
Lesser so signals intelligence (SIGINT), and then you go on up 
the chain there. But certainly in the area of HUMINT I think we 
are incredibly deficient.
    The Chairman. Mrs. Davis go ahead. Thank you.
    Dr. Hamre. I will be very brief. We don't do well in 
developing operational leadership skills in civilian agencies, 
and I would suggest that there are three things we should 
explore.
    One, there aren't enough civilians. They just buy enough 
people to fill every single job they have. They don't have 
extras to send them off to training or send them off for a year 
in another agency for experience. There aren't enough people in 
leadership positions that we can afford to train them well. So 
that is one thing we could do.
    Second, DOD does a very good job with war games and 
simulations; and if we could find a way to bring more 
simulation, war gaming into civilian agencies, the kinds of 
problems they are going to confront when they are involved in 
an unanticipated emergency and let them think it through in 
advance. We do this all the time in DOD, and that is good.
    Of course, that means you have to have the civilians that 
can take the two weeks off to go to a war game; and, right now, 
we can don't have it. But if we do fix that that would be a 
good thing.
    The third thing we need to do is encourage them to build a 
lessons-learned capability like we do in DOD. We have an office 
in DOD that after every exercise--this is in our culture--we 
say, what went right? What went wrong? What went well? What did 
not go well? How do we learn from this? And we systematically 
capture the lessons of previous experiences and bring them 
forward to future planning.
    Other agencies don't do that. And if we could do those 
three things: buy more people, do more war gaming and 
simulation, and great create an explicit lessons learned 
process--right now, lessons learned in the domestic agency 
tends to be as people get older they have lived through more 
experiences. It would be good to systematize that. We have done 
that in DOD. I think that would be helpful.
    And if I may, briefly, on intelligence in civil society, 
obviously, this is the hardest question. Americans want to be 
protected by the government, and they want to be protected from 
the government, and the only way to reconcile those two is 
through strong congressional oversight of the intelligence 
process. We have to have stronger domestic surveillance in this 
country, but none of us will trust it unless we know that you 
are watching out to protect us.
    The Chairman. Thank you very much.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much; and, Dr. 
Krepinevich--I hope I did not do too poorly with the name. I 
have been practicing. That is the reason I came back. I did not 
do well, I apologize for that.
    I want to ask you and Dr. Hamre--I want to go back just 
briefly. My comments about spending, very little control, the 
agencies, the DOD being more efficient. But I want to go a 
little bit further this time. You gentlemen are experts in your 
fields and probably other fields as well.
    This Nation right now, according to the Blue Dogs, is about 
$8.8 trillion in debt. David Walker, the Comptroller General of 
the GAO, says the true debt of this Nation is about $53 
trillion.
    I am asking you professionals, you experts, that when--we 
had a classified briefing on China last week. I sit here and 
listen very intently and carefully because there is so much I 
don't know, and I am trying to learn. But how in the world, 
knowing that President Reagan brought the Soviet Union down 
because of the arms race. They tried to compete. They had a 
weak economy or shaky economy, and they could not compete. How 
long can this country, knowing that you know about the roles 
and missions and the different systems that this country needs 
to fight terrorism or fight a China or North Korea, where are 
we going and how will we be able to fund what we need if this 
country does not get serious about being more frugal and 
efficient with the taxpayers' money?
    And I am not talking about DOD. I am just saying, I wonder 
where we are going. Is this of any concern to you as to what 
this will mean to our military at the rate we are going?
    Dr. Krepinevich. I am not sure if you were here when we 
were talking about a grand strategy review. But we talked about 
the review in the early 1950's, and one of the key elements 
President Eisenhower gave in coming up with this review was 
that he would not support any grand strategy that undermined 
the economic foundation of the country because he viewed that 
as critical to this country's long-term success.
    And if you look at some of the recent trends in terms of 
the geopolitical environment certainly relative to the 1990's, 
the challenges we face, the threats that we face today are on a 
much greater scale than the North Koreas and the Iraqs that we 
worried about principally in the 1990's. Radical Islamism, the 
needs for homeland defense, concerns about loose nuclear 
weapons and the efforts that it will take to develop counters 
to that, nuclear armed rogue states, the rise of China, these 
are problems on a much greater scale than we confronted in the 
1990's.
    And not only that, but we have a number of adversaries who 
are pursuing what people in the Pentagon call cost-imposing 
strategies. Very simply a cost-imposing strategy is you spend a 
million dollars to attack the World Trade Center leading the 
United States to spend $40 billion trying to keep you from 
doing it.
    So the increase in scale, the application of cost-imposing 
strategies and, quite frankly, the decline in support from our 
allies--either because they choose to act as free riders or 
because they have less confidence in our leadership--all of 
this means that we cannot afford to take a cavalier approach to 
our economic foundation, as President Eisenhower warned us.
    And the fact that we have these deficits, that we are 
passing on these problems to future generations, that we have 
borrowed and become the world's biggest debtor nation, not as 
we did in the late 19th century, to build the infrastructure of 
this country to improve our productive capacity, but rather 
basically for consumption purposes, is really eroding our 
flexibility to pursue certain kinds of strategies that could 
again effectively provide for our security.
    Dr. Hamre. Sir, I don't think America can remain a global 
superpower if it has economic feet of clay.
    Mr. Jones. Mr. Chairman, may I ask just one quick question? 
How much time do we have, in your opinion, to reverse where we 
are going?
    Dr. Krepinevich. That is sort of like predicting where the 
stock market is going to be.
    Mr. Jones. I understand.
    Dr. Krepinevich. A lot of it has to do with the psychology 
of Americans, of people who hold our debt. I mean, there are 
myriad factors that go into creating an economic crisis of 
confidence. And the instability in the oil-producing countries, 
many of them which could exacerbate our economic circumstances. 
But certainly there are numerous clouds on the horizon, and you 
know it is coming. Whether it is coming sooner or later, it is 
coming if we persist in this particular path that we are on 
now.
    Dr. Hamre. If I could just say, I don't know when we run 
out of time, but I do know if we don't do if this year, it is 
harder next year. It will be much harder two years from now, 
much harder five years from now.
    It is not that hard to solve the Social Security problem. 
It takes some courage, but it is not that hard. Both parties 
have to do it jointly.
    Mr. Jones. Yes, sir.
    Dr. Hamre. It is going to be much harder to solve the 
health care entitlement problem, because it is an infinitely 
more complicated problem, but we have to start now because it 
will be impossible to solve if we wait ten years.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Sestak for questioning.
    Mr. Sestak. Thank you, Mr. Chairman.
    I think Mr. Jones asked the defining question. I was going 
to ask a different question and probably going to end up making 
a statement, and I always swore when I got here I wouldn't do 
that.
    But what I am taken with is--and you kind of said some of 
these things--is you have laid out some of the challenges of 
the future. And they all were a little different: 
proliferation, globalization, loose nukes, irresponsible nation 
states that harbor terrorists, and anti-access. If I were to 
step back and say, okay, what is the one common theme that is 
among those, you also then time and again said fast response. 
Even in exploiting getting technology quicker than the other 
one, you said, Dr. Hamre, detection quickly or words to that 
effect.
    As I step back and I hear Mr. Jones bring up China, anti-
access, 70, 75 submarines. We will probably end up 49, maybe, 
if we go the way we are, probably lower.
    You, Dr. Hamre, seemed to throw out the real issue here, 
both here in Congress and over there. You said we have got some 
leftover stuff from the Cold War. I would venture to say we 
have some leftover cultural ethos from the Cold War. Everything 
you just mentioned, why are we saying we are measuring 
ourselves in greatness by the number of ships? Dr. Krepinevich 
referred to this. By the number of brigades? By the number of 
squadrons? Isn't that an output?
    So are we here in Congress--and, by the way, we know the 
Services are--holding on to measuring ourselves in capability 
by actually measuring capacity vice capability? What if we were 
all of a sudden not beholden to the past, however we came to 
the past, from shipyards or whatever, and were to say, maybe we 
don't need a submarine to find each one of those 75 submarines, 
maybe we just need to sprinkle these cheap little sensors the 
size of a Coke can out there. They are interconnected, and 
wherever it goes we know where that submarine is, and it sends 
a signal. You fly a plane over, and it drops a torpedo.
    My issue is, if you could comment on it, are we measuring 
the wrong thing? If you now have the tool in the Defense 
Department--and I know those simulators. They have shown it is 
not more ships, it is more C4ISR that is needed. And you come 
over here to Congress and you want to find a committee that 
does C4ISR, you can't. I looked.
    So my question is how do we change that? If I am not wrong, 
it is knowledge. What if we had known Saddam Hussein was going 
into Kuwait? What if we had known Japan was going to strike 
Pearl Harbor? And what if we know someone is about to launch a 
loose nuke? To my mind, you all touched on it, but what is the 
real role that we should start a mission that we have to change 
to and how do we measure ourselves for that? It seems to me 
that measuring in numbers of ships ain't the answer. Dr. Hamre? 
Dr. Krepinevich?
    Dr. Krepinevich. I think the common theme in terms of--one 
common theme, anyway--is that we have gone from a century where 
the principal threats to our security looked a lot like us: the 
Kaiser's Army, the Imperial Japanese Navy, the Wehrmacht, the 
Soviet military. We had ships, they had ships, and so on down 
the line. It was a symmetrical threat to a great extent.
    The three challenges that I mentioned: radical Islamism, 
modern insurgency warfare, rogue nuclear states and China, 
particularly in light of the ``Assassin's Mace'' literature, is 
all asymmetrical. We have done so well we have driven everyone 
else out of the business. As you point out, if the competition 
changes that much, then the metrics by which you measure 
success typically change on a great scale as well.
    As you are familiar from your Navy experience, on the one 
hand, we continue to measure the number of ships, but, on the 
other hand, we also know that even though the fleet is smaller 
that the Navy is a much more powerful instrument. It can strike 
far many more targets than it could even 15 years ago, almost 
in multiples. So I think the answer to how do you define the 
new metrics is the new problem set and how do you see yourself 
solving that problem?
    Just very quickly, you mentioned Pearl Harbor. The way the 
Navy saw itself solving the problem of the Japanese navy 
leading up to the World War II was the battle line, and the 
metric was the weight of the broadside. How many shells in how 
many minutes and carriers couldn't compete because they did not 
have that kind of throw rate, that kind of firepower?
    After Pearl Harbor, the metrics changed dramatically. It 
became could you find the enemy fleet before it found you and 
how many bombs could you drop at an extended range using 
aircraft? So the metrics changed rather profoundly.
    But the history of transformation is the search for the new 
opportunity or identifying the way to solve the new problem, 
and in the process of doing that you begin to identify what the 
metrics are. At least that has been the history of it.
    Again, I think that is where the committee in its oversight 
role, if it can get to the point where it says these are the 
problems that this committee is worried about, these are the 
problems that the country is worried about, and, quite frankly, 
if you put them in scenario form, these are the problems that 
your constituents can understand best and you can find out just 
what resonates with them and then put it to the military to 
give you answers as to how they intend to solve these problems 
and use your expertise to begin to say, well, if that is the 
way, then these are the metrics that begin to emerge and these 
are the sorts of things perhaps we could evaluate you on in 
terms of what you are buying and what kind of forces you are 
fielding and what scale.
    Dr. Hamre. Sir, I think you are right. I mean, we tend to 
measure things that were measured in the past and we carry it 
on through inertia. We haven't thought about how we should be 
thinking about our power in this era and how it could change 
the way we choose to invest. I think you are absolutely on the 
right direction.
    I am afraid I haven't thought enough about it deeply enough 
to be helpful to you right now. I would like to see a change in 
how we think about it. I think very much oriented toward 
outcomes, less toward input would be quite constructive. I hope 
that you will define this quest broadly.
    America's power has always been based on both its powers of 
intimidation and its powers of inspiration, and we have let our 
inspirational powers atrophy. 9/11 changed us from being a 
confident and proud Nation and now an angry and frightened 
Nation, and I think that did more damage to us than anything. 
If we can recover the foundations of America's confidence and 
optimism in addressing the future, it will be doing more for 
our national security than anything I can think we will buy in 
the defense budget.
    The Chairman. Your last comment is of great concern. How do 
we restore this country as an inspirational state? That is what 
we grew up with. And being transformed into a state of concern 
or, as you mentioned, fear does cause that to atrophy 
tremendously. How are we doing? How do we reverse that?
    Dr. Hamre. We all have to work on this together. I mean, I 
think this is about--it is so profound. The way we treat 
foreigners when they come to get a visa in our embassies. The 
way we project a fear when a new idea comes up. Dubai ports and 
the way that just ran away in fear. We are spending too much of 
our effort on homeland security with muscle, not brains.
    Let's think our way through this security problem. Let's 
just not just fearfully embrace brute force to try to stop this 
problem. Let's think our way through it. We are a smart, 
capable, sophisticated country. We can do better than we are 
doing.
    The Chairman. A special thanks to each of you. This has 
been one of the best hearings that this committee has 
experienced, and we are deeply grateful to you, and we hope you 
will make yourself available in the days ahead for us. It has 
just been fantastic having you here, and we appreciate it very 
much.
    [Whereupon, at 2:06 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             June 20, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 20, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8834.001
    
    [GRAPHIC] [TIFF OMITTED] T8834.002
    
    [GRAPHIC] [TIFF OMITTED] T8834.003
    
    [GRAPHIC] [TIFF OMITTED] T8834.004
    
    [GRAPHIC] [TIFF OMITTED] T8834.005
    
    [GRAPHIC] [TIFF OMITTED] T8834.006
    
    [GRAPHIC] [TIFF OMITTED] T8834.007
    
    [GRAPHIC] [TIFF OMITTED] T8834.008
    
    [GRAPHIC] [TIFF OMITTED] T8834.009
    
    [GRAPHIC] [TIFF OMITTED] T8834.010
    
    [GRAPHIC] [TIFF OMITTED] T8834.011
    
    [GRAPHIC] [TIFF OMITTED] T8834.012
    
    [GRAPHIC] [TIFF OMITTED] T8834.013
    
    [GRAPHIC] [TIFF OMITTED] T8834.014
    
    [GRAPHIC] [TIFF OMITTED] T8834.015
    
    [GRAPHIC] [TIFF OMITTED] T8834.016
    
    [GRAPHIC] [TIFF OMITTED] T8834.017
    
    [GRAPHIC] [TIFF OMITTED] T8834.018
    
    [GRAPHIC] [TIFF OMITTED] T8834.019
    
    [GRAPHIC] [TIFF OMITTED] T8834.020
    
    [GRAPHIC] [TIFF OMITTED] T8834.021
    
    [GRAPHIC] [TIFF OMITTED] T8834.022
    
    [GRAPHIC] [TIFF OMITTED] T8834.023
    
    [GRAPHIC] [TIFF OMITTED] T8834.024
    
    [GRAPHIC] [TIFF OMITTED] T8834.025
    
    [GRAPHIC] [TIFF OMITTED] T8834.026
    
    [GRAPHIC] [TIFF OMITTED] T8834.027
    
    [GRAPHIC] [TIFF OMITTED] T8834.028
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 20, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8834.029
    
    [GRAPHIC] [TIFF OMITTED] T8834.030
    
    [GRAPHIC] [TIFF OMITTED] T8834.031
    
    [GRAPHIC] [TIFF OMITTED] T8834.032
    
    [GRAPHIC] [TIFF OMITTED] T8834.033
    
    [GRAPHIC] [TIFF OMITTED] T8834.034
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             June 20, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    The Chairman. I am intrigued, Dr. Hamre, about your suggestion in 
looking at the problems rather than creating the fistfight that we 
anticipate in roles and missions within the Department between the 
services. May I make a request of each of you to give us a list of 
five--and for the record, not today--but make a list of five of those 
unanswerable questions that should go into the roles and missions mix? 
And I realize--I don't want you to just fly them by the seat of your 
pants today, but think about them, and within the very near future give 
them to us for the record.
    Dr. Krepinevich. 1. Grand Strategy: Today, a decade-and-a-half 
after the Cold War's end, the United States is in a position comparable 
to that which it confronted in the Cold War's early days. The tranquil 
years that characterized the decade following the Soviet Union's 
dissolution have been succeeded by troubling times presenting 
formidable new dangers that may grow only more threatening in the 
coming years. Unlike the early Cold War period, however, when the 
Soviet Union stood out as by far the greatest danger to U.S. security, 
there are now three major endurings challenge to U.S. security-radical 
Islamism, a rising China, and nuclear proliferation in Asia. These 
challenges are sufficiently severe, their potential to threaten the 
American people's security, institutions, and way of life is 
sufficiently great, and their character suitably enduring as to require 
a comprehensive strategy similar to that which emerged out of the 
Truman Administration's NSC-68 and the Eisenhower Administration's 
``Solarium'' effort in the early Cold War period. The objective of such 
a strategy should be to place the United States in the best possible 
competitive position. Given the character of the competition, the 
strategy must be sustainable over an extended period, as long as a 
generation or two if necessary. Consequently, it is imperative that the 
strategy be the product of a bipartisan effort. CSBA is exploring grand 
strategy options and I would be happy to brief you on our efforts.
    2. Army Reset: Congress and the Defense Department must decide how 
best to ``reset'' the Army for an era in which irregular warfare is 
likely to dominate its operations-while retaining the capability to 
fight a major combat operation (albeit one quite different from either 
of the Gulf Wars), if required. The Pentagon's 2006 Quadrennial Defense 
Review took an initial step to address this problem when it called for 
a strategy that emphasized ``building partner capacity'' training and 
equipping indigenous military forces in those countries threatened by 
radical elements, and doing the same for the militaries of those 
countries that stand by us as allies and partners. The idea is to 
acknowledge America's manpower limitations and to work with allies and 
partners, to include indigenous forces, to generate the forces required 
for sustained irregular warfare operations. Unfortunately, there has 
been little in the way of action to back up this noteworthy idea, aside 
from mandating a significant increase in our special operations forces 
(SOF).
    The Army plans to utilize its 65,000-troop end-strength increase to 
expand the number of its active brigade combat teams, which are 
oriented primarily on conventional warfare operations. I am aware of no 
plans the Army has to create training and advising organizations to 
build ``partner capacity'' by enabling America's allies and partners to 
``scale up'' quickly to meet the challenges that might be posed by 
irregular warfare contingencies. In its defense, the Service cites the 
need to maintain a rotation base of brigades for such conflicts and the 
need to ``hedge'' against a major combat operation characterized by 
conventional warfare. While the Army is right to see the need to 
address these issues, as noted above, the way in which it is doing so 
appears highly imbalanced in favor of conventional warfare 
contingencies.
    Put another way, given the overwhelming success of our ground 
forces in conventional warfare operations, and the shift of rival 
militaries and nonstate entities toward irregular warfare, orienting 48 
active Army brigades, 28 National Guard brigades, and three Marine 
Corps divisions primarily on conventional warfare operations would 
appear to reflect a desire to prepare for the kinds of challenges we 
would prefer to confront, rather than those we will most likely 
encounter. The Committee would be well-served to exercise its oversight 
role in reviewing the Army's reset plans before moving forward with a 
program that may consume as much as $100 billion or more.
    3. The Nuclear Posture: The United States today exists under a 
Second Nuclear/Strategic Strike Regime, which emerged as a consequence 
of the major geopolitical and military-technical changes that have 
transpired over the past 15 years. These changes have dramatically 
altered the competition with respect to strategic strike operations in 
general, and nuclear weapons use in particular.
    There has been a blurring of the distinction between nuclear and 
non-nuclear forms of strategic strike, stemming from the rise of 
precision and cyber strike capabilities, and the shift toward post-
industrial economies, which has made the target base more susceptible 
to non-nuclear forms of attack. The new strategic strike regime is 
further complicated by the growing number of states possessing 
strategic strike capabilities--nuclear weapons in particular--combined 
with our lack of understanding as to how they calculate costs and 
benefits, and their relative tolerance for taking risks.
    Owing to the growing number of nuclear-armed states and the 
potential for nonstate entities to possess nuclear weapons, the 
probability of nuclear use and ambiguous nuclear aggression is 
increasing. If nuclear weapons are used, there is a significant 
likelihood that the United States will survive the attack as a 
functioning society, with all the consequences that entails. Whether 
the attack occurs at home or abroad, the nation will likely be 
confronted with a massive stability operations challenge for which it 
is currently ill-prepared.
    Despite the dramatic change in the character of the military 
competition with respect to nuclear weapons and strategic strike, 
comparatively little study has been given to the matter-especially when 
measured against the analysis undertaken in the first decade or so of 
the First Nuclear/Strategic Strike Regime. The United States has yet to 
develop a comprehensive strategy for the Second Nuclear/Strategic 
Strike Regime. Given the consequences of failure in this aspect of the 
military competition, high priority should be given to this matter.
    4. Post-Iraq Strategy: It is important to realize that while Iraq 
is the ``central front'' in the war with Radical Islamists, it is also 
one campaign in a ``long war'' that may stretch out over decades. If we 
withdraw the bulk of our forces (or all our forces) from Iraq without 
achieving our minimal objectives, this defeat may be our ``Dunkirk,'' 
but it will not likely be our ``Saigon.'' We will not be able to ``call 
it a day.'' The war with the forces of instability and radicalism in 
that part of the world will almost certainly go on, just as Britain's 
war with Germany continued after it withdrew from the Continent.
    But we need a strategy, lest we be left grasping for one as we did 
during the onset of Phase IV operations in Iraq in the summer of 2003. 
The strategy must acknowledge that the conflict has multiple 
dimensions, and the primary theater runs from the shores of the eastern 
Mediterranean to the Hindu Kush. The war is certainly seen in that 
context by Iran. We need to think in strategic terms how we might shape 
events in our favor over the longer term. We can, to a significant 
extent, still shape our future. The Committee can do much useful work 
here by encouraging a strategy for the theater of war--not just the 
``central front.''
    5. Dissuasion Strategies: Dissuasion is defined as actions taken to 
increase the target's perception of the anticipated cost and/or 
decrease its perception of the likely benefits from developing, 
expanding, or transferring a military capability that would be 
threatening or otherwise undesirable from the U.S. perspective. In 
simpler terms, dissuasion can be viewed as a kind of ``pre-deterrence'' 
in which the target is discouraged, not from employing the military 
capabilities it possesses, but from creating such capabilities in the 
first place.
    Dissuasion, like deterrence, is a means of shaping the behavior of 
prospective adversaries. Unlike deterrence, however, allies can also be 
targets of dissuasion. For example, during the Cold War the United 
States vigorously pursued dissuasion strategies to discourage a number 
of its allies from developing nuclear weapons. Indeed, while it has 
gained increased attention in recent years, dissuasion is not a new 
strategic concept. The Cold War era was also characterized by thinking 
about how the United States might shape Soviet behavior. Channeling the 
ongoing competition with the Soviet Union into more stable and less 
threatening areas than those in which they might otherwise be inclined 
to engage, or into areas where they functioned relatively 
ineffectively, was an explicit goal of U.S. defense strategy in the 
mid-to-late 1980s. The Cold War ended, however, before it could be 
firmly institutionalized within the Department of Defense.
    Some dissuasion strategy initiatives are best pursued in the light 
of day, where the target (or targets) and others can readily discern 
their presence and effect. On the other hand, some dissuasion 
strategies are best pursued covertly, such that a rival cannot easily 
discern a direct link between U.S. actions and their intent. This is 
especially useful when an acknowledged link would serve to increase the 
target's resolve to pursue the course of action that is the object of 
U.S. dissuasion efforts.
    Dissuasion strategies should be the province of the Secretary of 
Defense, a small number of senior defense decision-makers, and a small 
analytic staff. Some aspects of a U.S. strategy will need to remain 
covert. Thus the fewer people who are aware of these efforts, the 
better. Consequently, the Committee might most usefully conduct its 
oversight role with regard to dissuasion through discrete discussions 
with the most senior defense officials.
    The Chairman. I am intrigued, Dr. Hamre, about your suggestion in 
looking at the problems rather than creating the fistfight that we 
anticipate in roles and missions within the Department between the 
services. May I make a request of each of you to give us a list of 
five--and for the record, not today--but make a list of five of those 
unanswerable questions that should go into the roles and missions mix? 
And I realize--I don't want you to just fly them by the seat of your 
pants today, but think about them, and within the very near future give 
them to us for the record.
    Dr. Hamre. I have listed below the five areas where I believe the 
precise mission remains opague, and the relative service and/or agency 
roles undefined.

        <bullet>  Military support to domestic civilian authorities--
        the creation of U.S. Northern Command has not resolved 
        fundamental questions about how the Defense Department will 
        function in coordination with other federal agencies in times 
        of emergency. There has been considerable attention devoted to 
        hard defense missions (e.g., intercepting commercial aircraft 
        in flight) but far too little attention to the Defense 
        Department's role in, and planning and capabilities for, 
        consequence management and civilian law enforcement.

        <bullet>  Space management--Despite the Rumsfeld Commission's 
        recommendations, space management remains troubled in the 
        Department. Mission advocacy is divided among multiple voices, 
        and there is no clear structure to coordinate space management 
        on an interagency basis.

        <bullet>  Detection, mitigation and response to domestic 
        nuclear terrorism--This is the most serious threat we face from 
        terrorism. Indeed, I believe this one threat vastly overshadows 
        everything else we do in homeland security. We do not have a 
        coherent plan as a nation to deal with this threat. There are 
        perhaps a dozen discrete steps or phases in the progression 
        from a terrorist cell acquiring a nuclear device to its 
        potential detonation in the United States. The United States 
        government can apply its capabilities at each step of this 
        process, yet we are hampered by the lack of coherence in our 
        approach. No one entity in the government oversees the whole, 
        and insufficient coordination is taking place among the many 
        agencies and bureaus with counterterrorism and 
        counterproliferation responsibilities. Disproportionate 
        resources go into tactical detection within 100 feet, but 
        virtually nothing in other areas. This entire mission area 
        needs urgent attention.

        <bullet>  Cyber operations--This is an especially difficult 
        mission area because the most serious and likely threats may 
        well be attacks against non-military assets. Normal defense 
        missions involve threats to military or governmental assets or 
        the population itself. In this instance, 99% of the cyber 
        infrastructure is in the private sector. So what is the 
        appropriate role of the Defense Department--and indeed the 
        entire Federal Government--in protecting against hostile cyber 
        operations?

        <bullet>  Security, stabilization, reconstruction, and 
        transition (SSTR) operations--Our armed forces can win any 
        battle, but when it comes to rebuilding civil society in a 
        conquered nation, we do not do well and we struggle with basic 
        organization responsibilities in our own government. After four 
        years, we still lack a reliable structure to integrate the full 
        capabilities and resources of the Federal Government.

    There are undoubtedly more missions for which structured, 
disciplined study and oversight are needed. But I would ask you to give 
high priority to these five issues. I and my colleagues would be 
pleased to follow up with you and the Committee at any time. I also 
believe you will find an Executive Branch that will accept the need for 
work in these areas.

                                  <all>

</pre></body></html>
